<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, MARCH 3, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:32 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson and Hoeven.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF STEPHEN T. AYERS, ARCHITECT OF THE CAPITOL


                opening statement of senator ben nelson


    Senator Nelson. The subcommittee will come to order 
officially. Good afternoon, everyone, and welcome.
    This is our first hearing of fiscal year 2012, and I want 
to start by welcoming my new ranking member, Senator Hoeven, 
from North Dakota, a former Governor.
    I look forward to working closely with you, Senator, as I 
did with my former ranking member and good friend, Senator 
Murkowski.
    I also want to welcome the other members of the 
subcommittee: Senator Tester, Senator Brown, and Senator 
Graham.
    I look forward to having the additional assistance in 
providing appropriations and oversight for the legislative 
branch of our Government.
    It seems a little odd to be meeting today, talking about 
fiscal year 2012 appropriations, but we do live in interesting 
times, and finishing up our fiscal year 2011 appropriations 
bill has proven to be more than a slight challenge. Maybe the 
greatest challenge I'll have today is to stay on track as we 
discuss fiscal year 2012 requests while operating at fiscal 
year 2010 levels during fiscal year 2011.
    Nevertheless, we do meet today to take the testimony on the 
fiscal 2012 budget requests from the Architect of the Capitol 
(AOC) and the Office of Compliance (OOC).
    I want to welcome our two witnesses today: Stephen Ayers, 
Architect of the Capitol and Tamara Chrisler, Esq., Executive 
Director of the Office of Compliance.
    Mr. Ayers, when we met here last year, I introduced you as 
``Acting'' Architect of the Capitol. And so, I want to first 
congratulate you on your recent confirmation as the 11th 
Architect of the Capitol.
    Mr. Ayers. Thank you, Mr. Chairman.
    Senator Nelson. We appreciate your service over the last 
few years and wish you all the best in this endeavor.
    I also want to congratulate Ms. Beth Plemmons, on your 
staff, for her recent appointment as CEO of Visitor Services.
    Your budget request this year totals $706 million, an 
increase of $104 million, or 17 percent, more than the current 
year. And by ``current year'', I'm once again referring to 
fiscal year 2010 enacted, which is what we are currently 
operating under.
    Mr. Ayers, you are understandably under an awful lot of 
pressure to accomplish what you need to in keeping the campus 
operating safely and efficiently. I, on the other hand, am also 
under a great deal of pressure to control Government spending. 
So, we'll need to work together to tighten this budget where we 
can, without subjecting our Visitors Services employees to 
hazardous conditions.
    Included in your request is $179 million worth of line-item 
construction projects, out of which two-thirds is for repairs 
and improvements, campuswide, and one-fifth involve life 
safety. Now, as important as these projects are, the reality is 
that many of these will have to be suspended and wait until 
another time.
    Ms. Chrisler, the fiscal year 2012 budget request for the 
OOC totals $4.8 million, an increase of $405,000, or 9 percent, 
more than the current year.
    As I just noted regarding Mr. Ayers' request, this is 
something the subcommittee may not be able to support in the 
current budget environment. However, we appreciate the efforts 
that both of your agencies have made to work cooperatively 
toward resolving the many fire- and life-safety needs around 
the complex given the limited resources.
    We look forward to your testimonies, in both cases, and to 
discussing the status of health and safety conditions 
throughout the Capitol.
    And now it's my pleasure to turn to the ranking member, 
Senator Hoeven, for any opening remarks that he may have.


                    statement of senator john hoeven


    Senator Hoeven. Thank you, Senator Nelson. I look forward 
to working with you, as the Chairman, on this subcommittee, and 
also want to thank both Mr. Ayers and Ms. Chrisler for being 
here today, and look forward to listening to your testimony.
    Like you, Senator Nelson, I bring a background as a 
Governor to this job, and certainly in that respect, working 
not only with a legislative body, as is the case with this 
Congress, but also working on a budget. And, of course, as a 
State, we had to balance a budget. I know that's true in 
Nebraska, as well. And the Chairman's right, obviously--and 
something that you all well know--that we have to work within 
the confines that we have. And that is that we have a 
significant and growing deficit and debt. And so we're going to 
have to find ways to trim and prioritize. And that's part of 
the process that we'll go through together and do the very best 
job that we can.
    Obviously I have a learning curve here with understanding 
your budgets. It's certainly good to hear directly from you and 
to work on this prioritization, and do the very best job we can 
for the people that we represent. Your expertise is vital in 
the process. I respect that greatly, and am going to work to do 
the best I can to produce the very best budget within the 
constraints that we have, both as we work through the balance, 
of fiscal year 2011, but also as we to get into working on 
fiscal year 2012.
    And I'm very hopeful that, as we do, we're going to get 
into a process where we go through that normal budgeting 
process, where we do our subcommittee work, where we, you know, 
have our authorizations, where we work on our appropriations, 
where we provide that opportunity for testimony and input, and 
that we bring those budgets up, and that we not only do our 
subcommittee work, then we get to the full committee, and from 
there to the floor, we take each of these appropriation budgets 
up to the floor, have our debate--our colleagues in the House 
do the same thing--and go do our subcommittee work in our 
conference committee. And that is the process, and I'm very 
anxious to get going on that for fiscal year 2012. So, we're 
hopefully working ahead of the curve within the process that we 
should have here in the Congress.
    Throughout that process, and throughout this process, in 
terms of finishing up fiscal year 2011, again, I do want to 
emphasize that I certainly recognize that you're the experts in 
this area and will do everything I can to take your input and 
use it to best advantage. At the same time, we have limitations 
we're going to have to work within and meet.
    Senator Hoeven. Thank you for being here today.
    Senator Nelson. Thank you, Senator.
    Now I'd like to begin with the witnesses. If it's possible 
to keep your opening statements to somewhere around 5 minutes 
and submit the rest for the record, that would work best.
    So, we'll start first, Mr. Ayers, with you, and then we'll 
hear from Ms. Chrisler. So, please proceed.


                 summary statement of stephen t. ayers


    Mr. Ayers. Good afternoon, Mr. Chairman and Senator Hoeven. 
Thank you for the opportunity to testify today regarding our 
fiscal year 2012 budget request.
    Today, we face significant challenges as our facilities and 
infrastructure continue to age and our mission continues to 
expand. In fact, we currently have a backlog of nearly $1.5 
billion in deferred maintenance and capital renewal projects 
that, if left unaddressed, could greatly impact the safety and 
security of the Capitol campus. And, as steward of this Capitol 
campus, I know that investment in our aging and historic 
infrastructure is vital. However, I also realize that the 
current fiscal environment presents a very difficult challenge 
for us to do more with less, and I think our budget request 
reflects this challenge.
    To ensure that we make the maximum use of every taxpayer 
dollar, we continue to identify cost savings and efficiencies 
and to aggressively address the most effective ways to use our 
limited resources. We've implemented comprehensive performance 
metrics, and they've led to significant improvements and cost 
savings in our organization.
    For example, we've recently reduced our inventory of 
supplies on hand from $56 million down to $7\1/2\ million. 
We've consolidated information technology (IT) equipment across 
the agency and eliminated 150 printers and fax machines. And 
we've successfully leveraged the use of performance 
specifications, thereby eliminating unnecessary design fees for 
several projects. Little things like this add up, and we can 
use those savings toward our more important projects.
    We've utilized public private partnerships to finance 
energy reduction projects, allowing us to invest appropriated 
funds in higher priorities. We've also renegotiated several 
leases to get lower rates, and have reduced our staff through 
attrition, without impacting our ability to achieve our 
mission.


                 <greek-l>aoc deg.prioritized projects


    In addition to implementing operational and business-
process efficiencies, we've carefully prioritized projects and 
operational funding. We've examined all existing accounts, 
identified available funds from nearly completed projects, and 
took on additional risk by reducing our construction 
contingency funding on several of these projects. And through 
this effort, we funded nearly $15 million in new projects with 
money that's already been appropriated to us. And this has 
enabled us to further reduce our fiscal year 2012 request.
    This budget reflects the highest requirements to prevent or 
delay further deterioration in our buildings. We've also 
included projects to improve security and safety across the 
campus. And, in addition, Mr. Chairman, we have deferred nearly 
$130 million of projects that are necessary and ready to 
proceed.


              <greek-l>aoc deg.aoc's commitment and staff


    Through the work of our professional staff, we're able to 
address client needs on a daily basis, maintain our facilities 
and mitigate the amount the project funds currently require. 
However, even at this level of funding, the operational budget 
alone won't enable us to defer projects indefinitely. In fact, 
problems will only become more severe and, in the end, cost 
more.
    The AOC embodies a commitment to preserving and maintaining 
the historic fabric of our country. And our fiscal year 2012 
request reflects the seriousness with which we take this 
commitment. We continue to be successful in our mission due to 
the skilled work and talent of our dedicated staff. We 
continually reap the benefits of their knowledge, skills, and 
experience. And I'm proud and honored to lead this dedicated 
team.


                           prepared statement


    And their work has not gone unnoticed, as our 2010 customer 
satisfaction surveys have shown again that more than 90 percent 
of our customers are fully satisfied with the level of service 
we provide them on a daily basis. And we're very proud of that.
    Again, thank you, Mr. Chairman, for the opportunity to 
testify. And I would be happy to answer any questions you may 
have.
    [The statement follows:]
                 Prepared Statement of Stephen T. Ayers
    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
thank you for the opportunity to testify today regarding the Architect 
of the Capitol's (AOC) fiscal year 2012 budget request.
    I would like to begin by expressing my thanks to this subcommittee 
and to the Congress for its support of the AOC over the past several 
years as we worked to fulfill our mission of serving the Congress and 
the American people by maintaining and preserving the wonderful 
historic treasures entrusted to our care.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We know first-hand the challenges of preserving historic buildings 
and planning for current and future requirements. It requires 
ingenuity, craftsmanship, perseverance, astute planning, diligence, and 
judicious management of resources. Our staff works around the clock to 
provide a safe and accessible environment for all who work and visit 
here.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    With the Congress' support, significant investments have been made 
in the buildings and infrastructure. Today, we face even greater 
challenges as the facilities continue to age and our mission continues 
to expand. In fact, we currently have a backlog of nearly $1.5 billion 
in deferred maintenance and capital renewal projects that, if left 
unaddressed over a significant length of time, could greatly impact 
safety and security across the Capitol campus.
    As steward of the Capitol campus, I know that investment in our 
aging and historic infrastructure is vital. However, we do realize that 
the current fiscal environment presents a very difficult challenge for 
the Congress, the AOC, and the American public to do more with less 
funding. Our fiscal year 2012 budget request reflects this challenge. 
We have carefully and systematically prioritized projects and 
meticulously developed our operational funding.
    To further ensure that we make the maximum use of every taxpayer 
dollar, we continue to identify additional cost savings and 
efficiencies, and to aggressively address the most effective way to use 
limited resources. We have implemented comprehensive performance 
measurements and metrics for nearly every aspect of our organization 
and these have led to significant agency improvements and cost savings. 
This data-driven management culture permeates our agency and gets 
results. For example, by improving our internal controls and requiring 
more extensive reporting, we have dramatically decreased leave errors 
in our time and attendance process. We also have established goals to 
improve efficiencies in our operations, such as our efforts to increase 
procurement opportunities for small businesses. In fiscal year 2010, we 
exceeded those goals by awarding more than $20 million in contracts to 
small businesses.
    Assisting me in these efforts is our Chief Operating Officer, 
Christine Merdon. Ms. Merdon joined the AOC in September 2010, and she 
brings a wealth of experience to our organization from both the public 
and private sectors, including small business acumen.
    She began her Federal career in 1981 as a cooperative education 
engineering student for the Navy. After earning her Bachelor of Science 
degree in 1987, from the University of Maryland in Civil Engineering, 
she continued her career with the Navy as a project engineer and 
project manager. In 1998, she received a Master of Science degree in 
Civil Engineering.
    In 1990, she joined the White House Military Office as a Project 
Manager responsible for managing classified design and construction 
projects at the White House, Camp David, and other Presidential support 
facilities. In 1998, Ms. Merdon was hired by Clark Construction, LLC, 
where she was project manager and superintendent for numerous projects 
including the American Red Cross Headquarters, Bethesda Place II, and 
the renovation of Baltimore's historic Hippodrome Theater.
    Ms. Merdon joined McKissack & McKissack in 2000, where she ascended 
to the role of Senior Vice President of Program and Construction 
Management. Her responsibilities included operations and business 
development for program and construction management contracts in 
Washington, DC; Chicago, Illinois; and Los Angeles, California. There 
she was responsible for the successful management of more than $11 
billion in major construction projects and programs including: 
Washington Nationals Major League Baseball stadium; O'Hare 
Modernization Program; Eisenhower Executive Office Building life-safety 
upgrades; Martin Luther King, Jr. National Memorial; Smithsonian 
Institution's National Museum for African American History; and the 
Lincoln and Thomas Jefferson Memorial Renovations.
    Over the past several months, Ms. Merdon and I have been working to 
save the taxpayers time and money. For example, we reduced our 
inventory of supplies on hand from $56 million to $7.5 million. We are 
also consolidating information technology equipment agency-wide and 
have eliminated more than 150 printers and fax machines over the past 
18 months. We have successfully leveraged the use of performance 
specifications to avoid unnecessary design fees for several Senate 
projects, and we are using in-house staff on many of our major 
construction projects, which has resulted in saving hundreds of 
thousands of taxpayer dollars.
    We also modified how we staffed the postelection office moves, 
bringing on temporary staff versus contracting out for the services, 
which resulted in significant savings. During one of the hottest 
summers on record last year, we expanded our energy curtailment program 
from a few hours on ``gold days'' to 24 hours a day, 7 days a week 
during State work periods. In addition, we have utilized public-private 
partnerships to finance energy reduction projects, allowing us to 
invest appropriated funds in other priority projects. At the Capitol 
Power Plant (CPP), we utilized a ``free cooling'' initiative where we 
used cold, outside air to create chilled water without running the 
chillers, thereby conserving electricity and saving money. We also 
renegotiated several leases to get the best rates, and we have looked 
to reduce staff through attrition where we can without impacting our 
ability to achieve our mission.
        <greek-l>aoc deg.fiscal year 2012 capitol budget request
    In addition to implementing these operational and business process 
efficiencies, we have carefully and meticulously prioritized projects 
and operational funding.
    For example, in fiscal year 2010, we examined all of our existing 
accounts, worked to identify available funds from projects that were 
nearly complete, and took on additional risk by decreasing construction 
contingency funding in some cases. Through this effort, we were able to 
fund nearly $15 million in new projects with existing resources, 
further decreasing our need for fiscal year 2011 funding. This, in 
turn, enabled us to further decrease our fiscal year 2012 request. 
Moving forward, we will continue to evaluate our ongoing projects, 
assess associated risks to congressional operations, and continue to 
find ways to fund projects with existing funds.
    However, we also identified projects or requirements that could be 
deferred, albeit not without significant risk. As funding is delayed, 
the requirements will worsen, the risk will escalate, and when funded, 
the projects will be more costly.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As a result of these exercises, we are requesting funding for only 
the most urgent projects and operational shortfalls. Our fiscal year 
2012 request of $706 million is nearly $50 million lower than our 
fiscal year 2011 request, and represents a 6.5 percent decrease from 
our fiscal year 2011 request.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The fiscal year 2012 budget request reflects the highest 
requirements to prevent or delay further deterioration and system 
malfunctions and/or failures. We have included more than $7 million for 
projects to improve security on the Capitol campus, and $38.4 million 
for life-safety projects.
    As I noted earlier, we have identified projects that might be 
deferred, but we have also assumed a level of risk in doing so. We will 
rely on our operating budgets to manage these risks. This will enable 
us to continue to maintain and sustain equipment, components, and 
systems; however, it would not guarantee that we could provide the 
necessary replacements in the event of system failure.
   <greek-l>aoc deg.capitol budget request and project prioritization
    We currently have a backlog of nearly $1.5 billion in deferred 
maintenance and capital renewal projects. One of our greatest 
challenges is to prioritize our efforts to ensure every taxpayer dollar 
goes toward the most important work. We have developed a world-class 
project prioritization process that ranks these projects based on the 
condition of the facilities, and the level of maintenance required to 
ensure they remain functional and viable working environments.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This triage process for facilities attends to the most serious 
issues first, while addressing the necessary life-safety issues, 
security requirements, energy-savings projects, historic preservation 
measures, and the needs of our clients, while deferring the growing 
need for Capitol improvement and Capitol construction projects until 
later.
    We believe we have built our fiscal year 2012 budget that best 
balances these needs and requirements in these fiscally constrained 
times. We are requesting $179.2 million for Capitol projects, which is 
a $37 million or 17 percent decrease from the fiscal year 2011 Capitol 
projects request. We also are recommending that an additional $129 
million in necessary work, which is ready to proceed, be deferred to a 
later fiscal year due to the austere budget environment.
    We have several tools that we use to assess which facilities need 
emergency care versus those that can be nursed along until funding 
becomes available to address specific deferred maintenance and/or 
capital renewal projects in those particular buildings. These tools 
include facility condition assessments, the Capitol Complex Master 
Plan, jurisdiction plans, and the Five-Year Capitol Improvements Plan, 
which examines phasing opportunities, project sequencing, and other 
factors to better facilitate the timing of the execution of major 
deferred maintenance and capital renewal projects.
    Our comprehensive prioritization process rates projects on a number 
of objective factors to produce an overall hierarchy of importance. 
During this process, projects are classified by type and urgency. The 
projects are then scored against six criteria:
  --security;
  --safety and regulatory compliance;
  --historic preservation;
  --mission;
  --economics; and
  --energy efficiency and environmental quality.
    We rank projects based on a composite rating consisting of 
classification, urgency, and project importance. This year, we also 
applied a criticality and risk-decision model to the overall 
prioritization list, and the resulting outcome was used as one filter 
to inform which projects should be included in the fiscal year 2012 
budget request. We also recognize that our facilities need life-safety, 
security, and functional improvements to provide a safe working 
environment to support the Congress' mission, and our request reflects 
improvements in those areas.
    To further refine the data on which our planning is based, for the 
past several years we have conducted independent, third-party facility 
condition assessments. These assessments identify the most critical 
issues in the facilities, and the objective data collected during this 
process helps us identify the urgent needs that must be addressed.
    The charts on the next page compare the facility condition index 
from fiscal year 2009 to fiscal year 2010. While the condition of the 
majority of congressional facilities, which are rated poor or fair, 
have not changed significantly, facilities once rated as excellent are 
beginning to trend downward. In fiscal year 2009, nine buildings were 
rated in excellent condition. In fiscal year 2010, there were just six. 
In fiscal year 2009, three buildings were listed as good. Now there are 
seven.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Without regular and prudent investments made in these facilities, 
this unfortunate trend will continue, and the deterioration will 
continue, possibly to the point of impacting congressional operations. 
We will work to reduce the deterioration to avoid operational impacts, 
however, in this fiscally restrained climate; we will need to focus 
resources on those activities and projects that most directly support 
the Congress.
    To provide us with a 20-year, strategic look ahead to queue up 
priorities, investments, and projects, we use the Capitol Complex 
Master Plan. We have worked with the Congress over the past several 
years to develop the Master Plan and its related jurisdiction plans.
    There are nine jurisdiction plans that describe the facilities that 
are maintained and improved by each jurisdiction, detail the current 
use of space, and identify long-term facility needs of each 
jurisdiction. These plans help us make future decisions about facility 
renewal requirements and new projects. For example, there may be 
instances where major, whole building renovations should be undertaken 
rather than a myriad of smaller projects.
    The Capitol Complex Master Plan assumes incremental decisionmaking; 
providing the AOC and the Congress with a blueprint for facility-
related decisionmaking and investment. It is an important tool because 
it:
  --Establishes stakeholder goals and direction on key decision points.
  --Assesses physical condition and capacities of buildings.
  --Identifies short- and long-range facility requirements.
  --Addresses sequencing issues.
  --Guides the Capitol Improvements Plan and funding requirements.
  --Manages stakeholder and building occupants' expectations.
    The Five-Year Capitol Improvements Plan helps us meet several goals 
by analyzing all of the facility requirements, grouping them into 
logical and economical sequencing and phasing, prioritizing the 
resulting requirements using a set of objective criteria, and 
establishing measureable outcomes.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The chart above provides a snapshot of proposed funding requests in 
future years by appropriation. If investments are not made to address 
the backlog of deferred maintenance and capital renewal projects, the 
bow wave will continue to grow into a tidal wave of projects that could 
potentially lead to catastrophic results including system failures or 
building closures.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A large portion of our Capitol budget request is to address 
deferred maintenance--$76.7 million or nearly 43 percent--that is 
critical to prevent or delay further deterioration. Several of these 
deferred maintenance projects that we are requesting funding for in 
fiscal year 2012 also address life-safety and security issues.
    These include:
  --Utility Tunnel Improvement Program.
  --Sprinkler system installation, Thomas Jefferson Building.
  --Skylight replacement, Hart Senate Office Building.
  --Structural repairs to underground garage, John Adams Building.
  --West House underground garage rehabilitation.
  --Modernize mechanical systems, Dirksen Senate Office Building.
    Other Capitol projects will help improve energy efficiencies, and 
thereby help save money, such as the relocation and replacement of 35-
year-old chillers at the CPP, and upgrading utility distribution system 
components throughout the Capitol campus, including completing the 
Utility Tunnel Improvement Program, or support our Government's time-
honored traditions with the construction of the stands and the planning 
of the support activities associated with the 2013 Presidential 
Inaugural ceremony.
    <greek-l>aoc deg.life-safety enhancements and energy efficiency 
                              improvements
    Two areas that are top priorities for our agency are safety and 
energy reduction, and we continue to see dramatic results due to our 
efforts in identifying and managing risks, and increasing efficiencies 
and reducing energy consumption, which in turn, saves taxpayers money.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Just as we have a robust and successful project prioritization 
process, we have a focused and proactive process in place to abate 
hazards, and have made substantial improvements to the Capitol campus 
infrastructure to enhance safety. With the Congress support, we have 
made significant investments to improve fire and life-safety systems 
within congressional buildings and on the Capitol grounds. As a result, 
the Capitol campus is safer today than ever, as evidenced by a 59 
percent reduction in hazards identified by the Office of Compliance 
since the 109th Congress. This is particularly significant because the 
amount of square footage of facilities that we maintain has 
dramatically increased over the same period of time. Between the 109th 
Congress and the 110th, the physical inventory that the AOC maintains 
was increased by 10 percent in additional square footage. During the 
111th Congress, another 3 percent was added.
    Moving forward, we will continue to partner with the Congress to 
execute life-safety projects in a planned manner that is fiscally 
responsible, efficient, and effective in order to further protect those 
who work in and visit the Capitol campus.
    Capitol-wide energy reduction efforts have yielded great results 
for the fifth year in a row. In fiscal year 2010, the Congress met the 
Energy Independence and Security Act of 2007 (EISA 2007) requirement of 
reducing energy consumption by 15 percent.
    To reduce reliance on direct appropriations, we are using privately 
financed public-private partnerships, known as Energy Savings 
Performance Contracts, to fund the project work that needs to be 
completed to conserve resources and reduce energy consumption. For 
example, in the Senate, we have begun construction on the following 
energy conservation projects:
  --installing 31,000 energy-efficient lighting fixtures in each of the 
        Senate office buildings;
  --upgrading existing pneumatic and electronic controls for heating, 
        ventilating, and air-conditioning systems with direct digital 
        controls;
  --replacing existing transformers with high-efficiency transformers; 
        and
  --installing removable insulation covers for steam valves to reduce 
        heat loss.
    After implementation of all energy conservation measures over the 
36-month construction period, the Senate office buildings are estimated 
to potentially realize a 36 percent reduction in total energy 
consumption, and approximately $3.9 million in annual energy savings. 
We anticipate that this investment will save approximately 7 percent 
annually toward the EISA 2007 goal.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the House office buildings this past year, we installed 30,000 
energy-efficient light fixtures, and converted 2,700 bathroom fixtures 
to automatic, low-flow units. We have achieved a 23.3 percent reduction 
in water consumption in the House office buildings from fiscal year 
2009 to fiscal year 2010. In addition, approximately 1,250 bathroom 
fixtures were diverted from landfills and sent to a local asphalt plant 
for recycling. We also installed a new dimmable LED lighting technology 
in the Rayburn cafeteria. In a matter of months, energy consumption for 
lighting in the cafeteria was reduced by more than 70 percent.
    After implementation of all energy conservation measures over the 
30-month construction period, the House office buildings are estimated 
to potentially realize a 23 percent reduction in total energy 
consumption, and approximately $3.3 million in annual energy savings. 
We anticipate this investment will save approximately 5.4 percent 
annually toward the EISA 2007 goal.
    In the Capitol Building, the following projects are ongoing: 
upgrading existing light fixtures with high-efficiency lamps, ballasts, 
and reflectors; modernizing Building Automation Systems, including 
existing pneumatic and electronic controls for heating, ventilating, 
and air-conditioning systems with direct digital controls, and 
replacing air-handling systems.
    After implementation of all energy conservation measures over the 
27-month construction period, the Capitol Building is estimated to 
potentially realize a 38 percent reduction in total energy consumption, 
and approximately $2.2 million in annual energy savings. This will 
contribute an anticipated 5 percent annually toward the EISA 2007 goal.
    In addition, our employees are doing their part to help save energy 
by using the mass transit and flexible work schedule programs. More 
than 35 percent of AOC employees use public transportation to commute 
to work. In addition, more than 930 AOC employees participate in the 
flexible work schedule program, and more than 125 are enrolled in the 
AOC's Telework Program.
    Because the CPP plays a critical role in our long-term energy 
conservation strategy, we are continually working to improve and 
upgrade operations there. In December 2010, the CPP marked its 100th 
anniversary of steady service of steam and chilled water to heat and 
cool congressional buildings. In that century of service, the plant has 
undergone significant changes as new buildings were built, and modern 
equipment was installed. However, in order to continue to provide these 
services into the future, significant investment is needed to replace 
aging infrastructure and to install new, energy-efficient equipment.
    Last year, with the assistance of the National Academy of Science, 
we completed our Strategic Long-Term Energy Plan, which we are using to 
guide our future energy program planning, and to identify and explore 
options that will help realize continued energy efficiencies and 
opportunities to save money.
    After careful review of several technologies that can further 
improve efficiencies and help meet future energy requirements of the 
Capitol campus, we are planning to incorporate the use of cogeneration 
at the CPP to generate on-site power. Cogeneration is the use of a 
combustion turbine in order to generate both useful heat and 
electricity. It is anticipated that the equipment would generate enough 
electricity to operate the CPP, and the use of the heat generated from 
this operation would produce enough steam to reduce reliance on the 
existing boilers. This would increase system reliability and the 
increased efficiency would help save money. The proposed cogeneration 
system also would significantly reduce emissions while providing a 
reliable source of electricity to the CPP and steam for heating 
congressional facilities. We are proposing the use of a utility energy 
services contract to finance construction of the cogeneration plant. 
This public-private partnership leverages private funding allowing us 
to initiate design and execute construction in a timelier manner, and 
allows us to use limited appropriated funds for other priorities, such 
as deferred maintenance or life-safety projects.
            <greek-l>aoc deg.annual operating budget request
    Our fiscal year 2012 annual operating budget request for $436.4 
million provides funding for continuing the critical activities of 
operating and maintaining the infrastructure which supports the 
Congress, other legislative branch agencies, and the public, as well as 
other AOC essential mission support services. This is a slight decrease 
from our fiscal year 2011 budget request. Some of these services 
include safety, human resources, financial management, project and 
construction management, planning and development, communications, 
information technology, and procurement. In our effort to further 
improve efficiencies and reduce costs, we are requesting funds to add 
internal controls software tools, and to update obsolete planning and 
project software.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Through the work of our in-house, professional staff, we are able 
to address client needs on a daily basis, maintain facilities, and 
mitigate the amount of project funds required at the present time. 
However, even at this level of funding, the operating budget alone will 
not enable us to defer projects indefinitely. The longer we delay in 
addressing these issues, the more conditions will continue to worsen. 
Ignoring these issues will not make them go away. In fact, the problems 
will only become more serious and, in the end, cost more.
    Mr. Chairman, one of the many areas in which our employees excel is 
in the preservation of our heritage assets. We take great pride in 
maintaining and conserving the national treasures entrusted to our 
care, and last year our efforts were recognized with the 2010 Award for 
Outstanding Commitment to the Preservation and Care of Collections. 
Heritage Preservation and the American Institute for Conservation of 
Historic and Artistic Works presents the award to the organization that 
has been exemplary in the importance and priority it has given to 
conservation concerns, and in the sustained commitment it has shown to 
the preservation and care of cultural property. The AOC was recognized 
as ``a model of exemplary stewardship of the historic collections in 
its care.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It was a great honor to receive this award because it recognized 
the efforts of our talented and dedicated staff that work to preserve 
these irreplaceable treasures, serve the Congress, and welcome millions 
of visitors every year. They take great pride in what they do and they 
put their unique and special skills to work every day to ensure our 
U.S. Capitol continues to stand as a powerful and iconic symbol of our 
Government.
                  <greek-l>aoc deg.aoc accomplishments
    Receiving this award was one of many significant achievements the 
AOC recorded this past year. As I mentioned earlier, we have 
implemented comprehensive measures and metrics across the agency that 
have led to significant improvements. For example, we continued to 
improve our cost accounting procedures and internal controls, and 
received our sixth consecutive clean audit opinion from independent 
auditors on all of our financial statements. In addition, our annual 
building services customer satisfaction surveys for fiscal year 2010 
again showed that a large majority of our customers are satisfied or 
very satisfied with the level of service the AOC is providing them.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Not only do we take care of our customers, we take care of our 
people. We are committed to being the best in our industry, and we have 
implemented several programs to recruit and retain the best talent. To 
further this goal, worker safety remains one of our top priorities, and 
we have successfully reduced our injury and illness rate by 75 percent 
since fiscal year 2000. We reduced the claims rate of 17.9 injuries per 
100 employees in fiscal year 2000, to fewer than 4 injuries per 100 
employees in fiscal year 2010.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Our talented staff have completed a number of projects this past 
year in our efforts to maintain and preserve the historic assets 
entrusted to our care, including painting the Capitol dome as an 
interim step to protect and weatherproof the cast-iron structure; 
repairing and replacing the Thomas Jefferson Building's lantern windows 
and frames, as well as conserving the Blashfield mural, ``Human 
Understanding'', and installing a lift system to provide access to the 
House rostrum, and allowing, for the first time in the Chamber's 
history, a Representative in a wheelchair to preside over a House 
session.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Our employees work tirelessly on the front lines to create a 
positive first impression of the Congress, the Capitol, and public 
stewardship. In 2010, the Capitol Visitor Center welcomed its 4 
millionth visitor. At the U.S. Botanic Garden, more than 1 million 
guests enjoyed its amenities and educational programs, including the 
annual orchid show.
                               conclusion
    Mr. Chairman, the AOC embodies a commitment to preserving and 
maintaining the historic fabric of our country, including the U.S. 
Capitol Building and its iconic dome that serves as a symbol of our 
country and our Government.
    Our fiscal year 2012 budget request reflects the seriousness with 
which we take this commitment. We understand the challenges that an 
austere fiscal environment presents, and we have developed this budget 
request in an effort to balance our stewardship responsibilities with 
fiscal responsibility.
    We have been successful in our mission due to the tireless work of 
our skilled craftsmen and professional staff who maintain and preserve 
our national treasures. Their efforts ensure that we continue to 
provide exceptional services to the Congress, and they have prevented 
catastrophic system and facility failures to date. The full measure of 
the dedication they display in their jobs may be difficult to measure, 
but we continuously reap the benefits of their knowledge, skills, and 
experience. I am very proud to lead this wonderful and dedicated team.
    We look forward to continuing to work with this subcommittee, the 
congressional leadership, and our oversight committees to address our 
mutual concerns for conserving the past while planning for the future 
of the Capitol and the facilities for the Congress and the American 
people.
    I would be happy to answer any questions you might have.

    Senator Nelson. Thank you.
    Ms. Chrisler.

                          OFFICE OF COMPLIANCE

STATEMENT OF TAMARA E. CHRISLER, ESQ., EXECUTIVE 
            DIRECTOR, OFFICE OF COMPLIANCE
    Ms. Chrisler. Thank you, Mr. Chairman, Senator Hoeven.
    I'm honored to appear before you today on behalf of the 
OOC. As you know, the OOC is a small agency with a broad 
statutory mission established by the passage of the 
Congressional Accountability Act of 1995 (CAA). The OOC is 
required to carry out a Dispute Resolution Program (DRP) for 
employing offices and employees, inspect legislative branch 
facilities for compliance in safety and health and disability 
access laws, promulgate regulations for implementation of 
applicable laws under the CAA, and educate members of the 
covered community about their rights and responsibilities under 
the act. These are our mandates. This is the work you have 
asked us to do.
    With the continued support of this subcommittee, we have 
been able to do our work. You have allocated the resources 
necessary for us to complete required inspections, you have 
authorized needed personnel to manage our Safety and Health 
Program and to oversee the implementation of the settlement 
agreement to abate life-threatening hazards in the Capitol 
Power Plant (CPP) utility tunnels.
    Mr. Chairman, it was through your efforts on this 
subcommittee, and your membership on the Rules Committee, that 
a blue ribbon panel of architects and fire-safety experts was 
convened to provide an independent assessment of fire-safety 
issues in the Russell Senate Office Building.
    Indeed, it is this subcommittee's dedication to fire-safety 
issues that paved the way for the OOC and the Office of the AOC 
to engage in a cooperative effort to set abatement priorities 
among the fire- and life-safety hazards present in legislative 
branch facilities.
    Surely, the scheduling of the two agencies today to appear 
before you is reflective of the subcommittee's commitment to 
address these issues promptly and comprehensively. With the 
sustained support of this subcommittee, the OOC can continue to 
do the work that you've asked us to do.
    For fiscal year 2011, the OOC requested approximately 
$298,000 in additional funding to support several initiatives, 
two in particular: the development and implementation of the 
risk-based inspection, an abatement approach that the 
Conference Committee on fiscal year 2010 directed OOC to 
institute; and essential improvements to our anticipated and 
increasingly inefficient IT infrastructure.

         <greek-l>OOC deg.RISK-BASED APPROACH TO INVESTIGATIONS

    The first is the risk-based approach. This approach to 
inspections and abatement allows the OOC to target the riskiest 
workplaces and work activities, such as machine shops, high-
voltage areas, and boiler rooms, where the risks are highest. A 
risk-based approach is resource-intensive because our staff 
will carefully examine written programs, observe employees 
while they work, and engage them in discussion to determine 
their understanding of safety programs. It's different than 
just conducting an inspection of a building. It takes more 
time, but it's cost effective and it makes sense. And it's what 
you've asked us to do.
    We'll focus our assistance on reducing the on-the-job 
injuries and illnesses, and remedy those violations that pose 
the more serious threats to worker safety, which, in the end, 
will save money, with fewer injuries and accidents, fewer 
illnesses, and less workers compensation.

                  <greek-l>OOC deg.NEED FOR INSPECTORS

    The OOC approached the 2012 appropriations cycle knowing 
that only minimal funding would be available. That being the 
case, we did not seek contract funding for a safety and health 
inspector, despite the facts that, one, we have fewer 
inspectors, one fewer inspector than in the past; two, the 
risk-based approach requires more time and expertise than 
inspections in the past; and three, we are facing roughly 18 
million square feet of legislative branch workspace to inspect 
this fiscal year and next.
    Our efforts to obtain a nonreimbursable detailee from the 
Department of Labor or another executive branch agency has 
failed, as fiscal and other constraints have prevented other 
agencies from supplying a detailee. As a result, the OOC will 
be unable to offer the same level of service as in prior years. 
We won't be able to inspect every workspace. Instead, we'll 
rely on employing offices to conduct self-inspections of 
certain lower-risk offices and administrative areas.

                 <greek-l>OOC deg.IMPACT OF BUDGET CUTS

    Should there be cuts below the current spending level of 
fiscal year 2010, the OOC will be forced to cut back on the 
services that you have mandated.
    Funding our DRP facilitates parties' ability to reach 
confidential settlements at an early stage of the process. A 
reduction in this funding might force us to reduce the number 
and duration of our contracts with mediators and hearing 
officers, which may impact the success of early resolution. For 
example, just last week, the OOC was able to provide additional 
mediation services to parties in a particular case. These 
additional services enabled the parties to reach an amicable 
settlement. A cut to these resources would mean less mediation 
time, thus diminishing the likelihood of favorable settlements. 
The result is protracted litigation involving depositions, 
testimony, pleadings, appeals, all of which are resource 
intensive and all of which put an unnecessary drain on taxpayer 
dollars.

                           PREPARED STATEMENT

    As I stated, the OOC is realistic about the available 
resources in fiscal year 2012. We understand the challenges 
faced by the Federal Government and, in particular, this 
subcommittee. We recognize the need to present a bare-bones 
appropriations request, so we've done just that. What that 
leaves us with, however, with is reduced services. Our work is 
vital to the Congress. We administer basic fundamental rights. 
With the requested funding, we can ensure that these 
protections continue to be administered.
    I thank you for your time, and am happy to answer any 
questions you have.
    [The statement follows:]
                Prepared Statement of Tamara E. Chrisler
    Mr. Chairman, Senator Hoeven, and distinguished members of the 
subcommittee, I am honored to appear before you today on behalf of the 
Office of Compliance (OOC). Joining me today are General Counsel Peter 
Ames Eveleth; Deputy Executive Director Barbara J. Sapin; Deputy 
Executive Director John P. Isa; and Budget and Finance Officer Allan 
Holland. Collectively, we present to you the OOC's request for 
appropriations for fiscal year 2012, and we seek your support for our 
request.
    For fiscal year 2012, the agency is requesting a total of 
$4,782,000, a $106,509 or 2.28 percent increase over the agency's 
fiscal year 2011 requested appropriations level of $4,675,491, and an 
increase of $405,001 or 9.25 percent increase from the fiscal year 2010 
enacted appropriations level of $4,377,000. This funding would provide 
the OOC with the resources necessary to continue the most critical 
services that are required by the Congressional Accountability Act of 
1995 (CAA). As discussed below, however, even with the requested 
funding, certain mandatory services will be beyond our means. The 
minimal increase for fiscal year 2012 includes funding for increased 
costs of administrative services from the Library of Congress (LOC) and 
funding for basic operations to perform our core programs:
  --administrative dispute resolution services, safety and health and 
        disability access inspections; and
  --education and outreach services, all of which are mandated by the 
        CAA.
    The OOC is a small agency with a broad statutory mission. 
Established by the passage of the CAA, this agency was created by the 
Congress to administer the workplace rights laws, safety and health 
laws, and public accessibility laws that applied to the private sector 
and, in the case of some laws, to the rest of the Federal Government. 
The CAA requires that the OOC carry out a dispute resolution program 
(DRP) for employing offices and employees; inspect legislative branch 
facilities for compliance with safety and health and disability access 
laws; promulgate regulations for implementation of applicable laws 
under the CAA; and educate members of the covered community about their 
rights and responsibilities under the act. These are our mandates; this 
is the work you have asked us to do.
    Over the years, this subcommittee has demonstrated a real 
appreciation for the work performed by the OOC. In particular, this 
subcommittee has shown strong support for our safety and health program 
by allocating the resources necessary for us to complete the required 
inspections of legislative branch workplaces. Further, the subcommittee 
has authorized needed personnel to manage our safety and health program 
and to oversee the implementation of the settlement agreement that is 
abating the life-threatening hazards in the Capitol Power Plant (CPP) 
utility tunnels. Mr. Chairman, it was through your efforts on this 
subcommittee and your work on the Rules Committee that a Blue Ribbon 
Panel of architects and fire-safety experts was convened to provide an 
independent assessment of fire-safety issues in the Russell Senate 
Office Building. Indeed, it is this subcommittee's dedication to fire-
safety issues that paved the way for the OOC and the AOC to engage in a 
cooperative effort to set abatement priorities among the fire- and 
life-safety hazards present in legislative branch facilities. Surely, 
the scheduling of the two agencies to appear before you today is 
reflective of the subcommittee's commitment to address these issues 
promptly and comprehensively.
    With the sustained support of this subcommittee, the OOC has been 
able to ensure that legislative branch workplaces are subject to the 
same laws applicable to workplaces in the private sector and other 
Federal agencies. Our fiscal year 2012 requested increase is minimal: 
$106,509, almost half of which is attributable to the LOC increased 
charge for administrative services it provides to this agency. The 
remainder of the increase reflects additional costs due to inflation 
and for minimal operational costs. We have essentially presented you 
with a flat budget for fiscal year 2012.
 <greek-l>ooc deg.what we can do with fiscal year 2011 and fiscal year 
                              2012 funding
    In fiscal year 2011, the OOC requested an additional $298,491 in 
funding to support several initiatives:
  --the development and implementation of the risk-based inspection and 
        abatement approach that the Conference Committee on fiscal year 
        2010 legislative branch appropriations directed the OOC to 
        institute;
  --essential improvements to our antiquated and increasingly 
        inefficient IT infrastructure; and
  --the salary increase required by Federal law.
    For the fiscal year 2011 appropriations cycle, staff of the OOC 
examined our programs in conjunction with our statutory mandates and 
made significant efforts to streamline our appropriations request to 
reflect the country's and the Government's economic difficulties. As a 
result, we presented an appropriations request that contained only 
those items necessary to meet the most fundamental of our statutory 
mandates.
    Fiscal year 2012 funding at the requested level (inclusive of 
fiscal year 2011 requested funding) will allow the OOC to employ the 
risk-based biennial inspection and abatement approach contemplated in 
the fiscal year 2011 budget request. This risk-based approach is 
resource-intensive for our agency, but should result in cost savings 
across other agencies in the legislative branch. This approach allows 
the OOC to target the riskiest workplaces and work activities, such as 
machine shops, high-voltage areas, and boiler rooms. We would 
concentrate our limited resources on areas where the risks are highest 
(the CPP and hazardous chemical storage rooms, for example); focus the 
technical assistance we provide on reducing on-the-job injuries and 
illnesses; and remedy those violations that pose the most serious 
threats to workers' safety. Of course, cooperation with the AOC's 
staff, as well as with other employing offices, is an integral part of 
the development and implementation of this approach. Working with the 
employing offices, our inspectors would carefully review and assist in 
the development of written safety programs that protect employees who 
work with certain hazardous materials. Our staff will observe employees 
while they work to determine their understanding of safety programs 
designed to protect against injuries. A careful examination of fire 
prevention programs is essential in the many Capitol Hill facilities 
that have serious life-safety deficiencies.
    This subcommittee's support of the OOC's requested appropriations 
for fiscal year 2011 and fiscal year 2012 will allow the OOC to 
continue to work with high-quality mediators and hearing officers. One 
of the OOC's core statutory functions is to provide confidential and 
timely counseling, mediation, and hearing services to assist employees 
and employing offices in resolving workplace rights claims, such as 
discrimination and harassment. Supplying the parties with highly 
skilled mediators and hearing officers allows the OOC to equip the 
parties with the tools necessary to reach amicable agreement and to 
fairly resolve and adjudicate claims.
    In addition, fiscal year 2012 funding at the requested level 
(inclusive of fiscal year 2011 requested funding) will allow the OOC to 
update its out-of-date communications and IT systems to improve 
efficiency and enhance the security of vital information. The OOC's IT 
systems are the warehouse for workplace rights claims filed against 
Members of Congress. Accordingly, it is essential that these systems 
use the best security measures available to protect your confidential 
information. The OOC has already begun collaborative efforts with the 
LOC to share services and develop OOC IT systems that maintain the 
confidentiality of this information and meet the highest of security 
standards.
     <greek-l>ooc deg.what we cannot do even with what we requested
    Our fiscal year 2012 request is basically flat. We approached 
fiscal year 2012 knowing that only minimal funding essential to meet 
the bare requirements of our mission would be available. That being the 
case, we did not seek contract funding for a safety and health 
inspector despite the fact that we have one fewer inspector than in the 
past. In our fiscal year 2010 and fiscal year 2011 budget requests, we 
noted our need for such an inspector, but indicated our intention to 
fill the need by obtaining a nonreimbursable detailee from the 
Department of Labor or other executive branch agency. Fiscal and other 
constraints have prevented other agencies from supplying such a 
detailee, and we have been advised that no detailee will be available 
in the foreseeable future. The need remains, however: the risk-based 
approach requires more time and expertise than the inspections of the 
past. At the same time, we are facing roughly 1 million additional 
square feet of legislative branch work space (to add to the existing 17 
million square feet) that is expected in fiscal year 2011 and 2012. As 
a consequence, our agency will be unable to offer all the services 
described above at the same level as in prior years. Some services may 
be reduced, while others may need to be discontinued altogether. In 
particular, the tradeoff is that we will not be able to inspect every 
workplace; instead, we will rely on employing offices to self-inspect 
certain lower-risk offices and administrative spaces. While we intend 
to inspect high-hazard workspaces, our ability to inspect all such 
areas is likely to be limited as well.
      <greek-l>ooc deg.what happens with cuts below current levels
    Should there be cuts below the current spending level of fiscal 
year 2010, the OOC will be forced to cut other services, as well as 
associated resources. As a statutorily mandated service agency, our 
business is largely driven by requests to our office--requests for 
information, requests for counseling, requests for mediation, requests 
for technical assistance, requests for inspection. Given that our 
agency's visibility has increased over the years, we are currently 
receiving more requests than we have in the past, from employees and 
employing offices alike. Consequently, any gap between our resources 
and our work will be immediately apparent to the covered community.
    The OOC's staff remains small. There are no overlapping functions. 
Thus, reductions to our resources could require us to eliminate not 
only positions, but entire programs as well. Should our resources be 
reduced below current levels, we will be faced with cutting back the 
services that you have mandated, and the delivery of remaining services 
may suffer.
    Specifically, as mentioned above, the OOC will struggle to meet our 
safety and health mandate even if our request is fully funded. Further 
reductions will mean fewer electrical shops inspected, less time 
observing workers' use of hazardous chemicals and reduced reviews of 
fire prevention programs in buildings with deficient emergency exits. 
The result would likely be more workplace injuries and illnesses, which 
in turn require higher workers' compensation costs, more overtime hours 
and reduced productivity--all on top of the pain and suffering 
experienced by the injured employee. Further cuts would thus be both 
painful and counterproductive.
    Additional reductions would likely force us to reduce or even 
terminate our disability access activities. We are obligated to ensure 
that members of the public do not confront barriers when seeking access 
to their elected representatives. With full funding, we will survey the 
routes between public transportation and congressional buildings to 
ensure that they are barrier-free. Any cuts below present levels may 
require us to discontinue this effort.
    In addition, funding for our DRP facilitates parties' ability to 
reach confidential settlements at an early stage of the process. A 
reduction in funding might force us to reduce the number and duration 
of our contracts with mediators and hearing officers. These resources 
are vital to the success of early resolution efforts. In fact, just 
last week, the OOC was able to provide additional mediation services 
for the parties to a particular dispute. These additional services 
enabled the parties to reach an amicable settlement. A cut to these 
resources would mean less mediation time, thus diminishing the 
likelihood of favorable settlements. The result is protracted 
litigation--involving depositions, testimony, pleadings, appeals--all 
of which are resource-intensive, and all of which put an unnecessary 
drain on taxpayer dollars.
                               conclusion
    As stated above, the OOC is realistic about the available resources 
in fiscal year 2012. We understand the challenges faced by the Federal 
Government, and this subcommittee in particular. We recognize the need 
to present a bare-bones appropriations request; so we have done just 
that. What that leaves us with, however, is reduced services. The OOC's 
work is integral to the safety and health of each and every employee of 
the legislative branch; it is essential to the fair workplace that the 
Congress provides; and it is needed by people with disabilities who, 
like all other citizens, deserve access to their elected officials. Our 
work is vital to the work of the Congress: we administer basic, 
fundamental rights for individuals, and we do so because you have 
determined that you want these protections. With the requested funding, 
we can ensure that these protections continue to be administered.
    On behalf of the Board of Directors and the entire staff of the 
Office of Compliance, I thank you for your support of this agency. I 
would be pleased to answer any questions.

                <greek-l>AOC deg.BUDGET CUTS AND IMPACT

    Senator Nelson. Thank you. Thanks, to both of you.
    If it's okay, maybe we can do about a 5-minute round of 
questions, here.
    First of all, as it relates to the AOC, your fiscal year 
2012 budget totals $706 million, which, as I said, is an 
increase of $104 million, or 17 percent. It's not exactly the 
right direction, but as you explained it might have been even 
more if you had been unrestrained in how you could approach 
this.
    What would be the impact of an actual cut of 5 percent or 6 
percent or 7 percent to the current budget, without any 
increase, but a cut? And give us some idea of what you would 
have to defer, what you would have to put aside, and what you 
would have to reduce in overhead expenditures.
    Senator Nelson. You can it to give us, generally; and then 
for the record, you can do it--to lay it out in more detail. 
But, just for the moment, give us some idea of what that impact 
would be.
    Mr. Ayers. Absolutely. Mr. Chairman, the overarching theme 
would be--we have two large portions of money in our budget. 
One is our operations and maintenance budget and the second 
part is our capital improvements or line-item construction 
project budget. And on that line-item construction project 
portion, we have a really good prioritization process that 
presents to the subcommittee a list of the projects that need 
to be done, that are in priority order. We do that as a tool to 
help the subcommittee, and us, work collectively to make 
adjustments to that.
    So, typically what we would do is move the funding line 
from where we've recommended it up to wherever that budget cut 
needs to be. So, in essence, the first thing that would happen 
is many of the projects and capital improvements that we have 
identified in our budget would be cut. So, that would then 
increase our backlog of deferred maintenance and capital 
renewal work; the condition of our facilities would deteriorate 
and worsen. As I know you know, those projects that ultimately 
need to be done and will cost a little more later.
    On the operational side, we would work to find areas where 
we can be more efficient. We would work to find areas where we 
can cut services. We would work across the legislative branch 
to see where there are any areas of duplication which we can 
eliminate to begin to work to reduce the operational side.
    Senator Nelson. It was noticed that the increase in your 
operation budgets has been 47 percent over the past 6 years. 
That's why I raise the question of what would be the impact on 
your operations. I understand the capital accounts would be--
for construction improvements--would--could be deferred, but 
what about the operational--the growth in operational expenses 
over that period of time of 6 years? You're only accountable 
for part of that, but maybe you can explain that.
    Mr. Ayers. Well, I think much of that increase in growth 
comes from new mission requirements. A great example of that is 
opening the Capitol Visitor Center (CVC), 2 years ago, where we 
have approximately 250 employees there in the CVC. So, that 
represents probably the biggest increment of that operational 
growth in those salaries that you see on the operations side of 
our budget.
    Senator Nelson. That's what I was hoping you would point 
out.
    Now, this is one of those smaller items, but I don't know 
what the impact would be. I note that you recently updated your 
Web site and logo; and so, I'm assuming that that results in 
all kinds of other changes to literature, printing 
requirements, and so forth. In the decision to do that, did you 
consider what the cost would be, versus the necessity to incur 
the costs at this challenging budget time?
    Mr. Ayers. We did. And that was one of the important tenets 
that we used to make that decision. What we've done is 
eliminate the need for stationery. We created a logo that's 
computer printer friendly. We since we've changed that logo, we 
no longer purchase preprinted stationery. Our logo is all 
generated--and our memoranda are all generated from our 
computer system. So, we think, ultimately, in the end, that 
will save money.
    In addition, our approach with our staff has been, ``Use 
all existing resources. Don't throw anything away. Use 
everything you have before you switch to using these new 
products.''
    Senator Nelson. That's all I have, for the moment.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.

            <greek-l>AOC deg.PROJECT PRIORITIZATION PROCESS

    This is a question I would address to each of you. Just 
putting in context I anticipate our resource base being for the 
balance of this cycle, and then going into 2012. Right now, if 
you look at the legislation that the House has passed, they're 
at a total of about $60 to $61 billion below the current 
spending level, which is the fiscal year 2010 spending level. 
That's the spending level we're at now. So, that's one number 
that's out there.
    On the Senate side, the majority in the Senate has said, 
``Well, more in line, or in keeping with the administration 
budget, we should hold funding about at the current spending 
level.'' So, if you take those two as ends of the spectrum, and 
then there's certainly the possibility that we could end up at 
one of those, or somewhere in between. In that context, what 
I'd like you to do is talk in terms of these budgets, rather 
than--in both cases, you've submitted budgets with increases; 
and, in the case of the AOC, I think it's 6.5 percent increase 
from the fiscal year 2011, and I think it's around 9.5 or 9.6 
percent in the case of the OOC.
    So, I think, in terms of a level budget to a budget where 
you could be looking at up to a 10 percent reduction, or in 
that range, prioritize for me how you would work to get to that 
level, and then even with a reduction. Talk about that 
prioritization in terms of operating budget and people, and 
then also your project budget.
    Mr. Ayers, maybe you'd like to start.
    Mr. Ayers. I'd be happy to. First, I haven't had the 
opportunity to explain the project prioritization process 
before, Mr. Hoeven. So, I'd like to take a minute to do that.
    It really is a good process that we've worked really hard, 
over a number of years, to put together. First, it takes every 
capital project that comes to us, from ourselves or our 
customers or our consultants or whomever it is, and puts it 
through a process where we evaluate it and give it a numeric 
score with a set of predetermined criteria on mission, 
economics, energy, regulatory compliance, security, and 
historic preservation. We evaluate the whole project and give 
all of those elements a numeric score. Then we also determine 
whether it's an immediate requirement or of immediate urgency, 
or high or medium or low. Then, last, we categorize that 
project as either deferred maintenance through the spectrum to 
capital construction; deferred maintenance being something 
that's broken that needs to be fixed. Capitol construction, on 
the other end of the spectrum, is something that's new 
construction.
    So, then our algorithm prioritizes these hundreds of 
projects that come in to us, and ultimately delivers what you 
see in our budget request: a list of prioritized projects where 
you literally can move the line from the bottom of the list up 
and still have confidence that what remains are the highest-
priority projects for us to execute.
    So, that would be the first thing we'd do. We would use 
that tool and move that line up to where that reduction needs 
to be.
    And similarly, we would go through our operational budget 
with the same kind of tenacity to make reductions across the 
board in all of our operating budgets and our overhead rates 
and our lease rates and, you name it, to get to that objective.

<greek-l>AOC deg.ADDRESSING DEFERRED PROJECTS WITHIN BUDGET CONSTRAINTS

    Senator Hoeven. Well, I'm still obviously new to this 
process, but I expect, at some point, we're going to have a 
number that we're going to have to achieve. So, I want to 
commend you--and I may have to come back, in my next 5 minutes, 
to you, Ms. Chrisler--and certainly want to do that.
    I have that prioritization right in front of me, both for 
construction projects and for deferred. I think that's an 
excellent way to do it. And I think you went right where I kind 
of thought you might, and rightly so. Because, at some point, 
that is probably how we're going to have to do this. We're 
going to have to work through these projects and do as many as 
we can within the constraint that we're given, and then balance 
that with--going back to that operating line and having you 
talk about--and working with our analysts, saying, ``Okay, what 
do we do there?'' In other words, in a sense, you've almost and 
rightly so--prepared yourself, on the project side, both for 
new projects and for deferred. And I commend you for that.
    But, we're going to have to mix that in with the operating 
side, and take a hard look there. And I know, when you're 
talking about with people it's tougher, always. So, you know, 
we really need to work with you on that piece. Also, in terms 
of how we marry up the deferred versus the new projects. And, 
of course, that's going to be a function of what, in your 
expert judgment and those of your people, which deferred items 
absolutely need to be done.
    I know sometimes it comes down to it would be cheaper and 
better to do it new and--you know, if you had the dollars, that 
is perhaps the most cost-effective way to go. But, in some of 
these cases, we may have to go to the deferred maintenance to 
keep it going for another 5 years or 7 years, versus perhaps 
what we'd like to do otherwise.
    So, I think you've got a good start here, and I think 
that's the direction I would try to work with you in terms of 
probably setting up these different scenarios so we're prepared 
for the number that we're ultimately going to get, in terms of 
the budget we have to achieve.
    And, Ms. Chrisler, in my next 5 minutes, I'd love to come 
and kind of go through some of the same things with you.
    Ms. Chrisler. Thank you.
    Senator Hoeven. Yes.

                   <greek-l>AOC deg.BLUE RIBBON PANEL

    Senator Nelson. Well, Ms. Chrisler, you mentioned the blue 
ribbon panel that met. Could you give us what their 
recommendations were, or what their conclusions were, with 
respect to, first, the Russell Senate Office Building stairs. 
That was an issue that we spent time on last year. It still 
raises questions about how you deal with life-safety issues in 
connection with historic buildings. So, maybe you can give us 
what you've taken from their report, their recommendations.
    Ms. Chrisler. The blue ribbon panel has submitted its final 
report. I know the Rules Committee is waiting to receive that 
report. Our office has taken a look at it and has prepared a 
response that we would be happy to provide for the record. We 
would also be happy to provide that to the Rules Committee once 
they have received the final report.
    There are a number of recommendations that the panel made 
with respect to different options. And, so that I don't 
misquote those----
    Senator Nelson. Sure enough.
    Ms. Chrisler [continuing]. Recommendations, I'd be happy to 
provide them for the record.
    [The information follows:]

    Under the life-safety code, buildings on Capitol Hill must provide 
protected exit routes so that their occupants will be able to safely 
leave the buildings during an emergency evacuation without being 
exposed to fire, smoke, or toxic gasses. Because the Russell House 
Office Building (RHOB) does not have enclosed stairwells or other 
protected escape route, the General Counsel of the Office of Compliance 
(OOC) issued a citation (Citation 19) in 2000 to require that this 
life-threatening hazard be abated. In 2008, the Architect of the 
Capitol (AOC) developed a plan to abate this hazard (known as the 
Senate Alternative Life Safety Approach or SALSA) that was subsequently 
approved by the OOC general counsel. The SALSA plan was designed to 
provide an alternative to enclosing monumental stairways within the 
RHOB. It proposed to create separate ``fire zones'' within the building 
that would both contain the fire and provide protected areas within the 
building and would enable occupants to either completely exit the 
building or be sheltered in place, free from exposure to fire, smoke, 
and toxic gases. This compartmentalization would be accomplished by 
installing fire-rated doors mounted flush with corridor walls that 
would be closed automatically upon activation of fire alarms. 
Thereafter, at the request of the Senate Committee on Rules and 
Administration, the AOC established a Blue Ribbon Panel (Panel) of 
experts to address concerns about the effect the SALSA plan might have 
on the historic fabric of the RHOB.
    In its final report, dated August 23, 2010, the Panel assessed both 
fire-safety and historic-preservation concerns. As the Panel found, the 
hazards in the RHOB include unprotected exit pathways, insufficient 
emergency exit capacity, and excessive exit travel distances in 
contravention of life-safety code requirements. It concluded that fire-
safety hazards in the RHOB could be rectified ``in a manner that is 
consistent with historic preservation goals.'' The Panel considered 
three design options, along with the AOC's SALSA plan, to address the 
deficiencies and proposed nine ``general recommendations'' to be 
implemented in addition to whichever design option was selected. The 
general recommendations are divided into immediate, short-term, and 
long-term recommendations. The immediate recommendations involve attic 
improvements (removal of stored combustible materials or installation 
of automatic sprinkler protection along with smoke barriers and 
compartmentalization), basement workshop and storage improvements 
(removal of the furniture refinishing workshop, enclosing other 
workshops with 1-hour fire separation and removal of combustible 
materials in the basement corridor), and inspections (develop and 
implement an annual inspection program focusing on fire prevention best 
practices). As to these items, the Panel concluded that they ``will 
have a significant impact on the level of fire safety in the buildings 
and are envisioned as viable, discreet, and relatively easy to 
accomplish. These improvements should be undertaken as soon as 
possible.''
    The short-term recommendations involve providing smoke control in 
the atrium and providing a remote means of egress for all assembly 
spaces with occupant loads exceeding 50 persons. The long-term 
recommendations include adding protective materials to the attic roof 
structure, modifying, or replacing the HVAC systems to eliminate air-
transfer openings, providing fire stopping for or replacing utility 
shafts and floor openings, and removing the combustible courtyard 
structure.
    The Panel evaluated SALSA and the three design options by 
considering the historic preservation goals as well as nine life-safety 
objectives:
  --maintaining structural integrity during a fire;
  --separating hazardous areas from the remainder of the building;
  --restricting smoke movement from rooms to the exit corridors and to 
        other areas of the building;
  --providing protected occupant egress paths;
  --restricting vertical smoke movement in the Atrium;
  --restricting vertical smoke movement throughout the building;
  --providing adequate egress capacity;
  --limiting exit travel distances; and
  --creating contiguous protected exit paths.
    While the Panel acknowledged that SALSA together with the general 
recommendations would meet these nine safety objectives, the Panel 
dismissed this as an option because it failed to meet historic 
preservation goals.
    The Panel did not evaluate option 1 in detail. It provides for an 
extended automatic sprinkler system for fire and smoke control, 
improvements that already are underway. Option 2 would meet both the 
historic preservation goals and the life-safety objectives because, in 
addition to extending sprinklers and smoke detectors, it provides for 
compartmentalization of the RHOB into separate fire zones. This is 
accomplished by installing fire-rated pocket doors within the walls 
that are activated only in the event of a fire thereby preventing the 
spread of fire and toxic gasses while creating protected areas for 
occupants to escape safely from the building. Option 3 would also meet 
the historic preservation goals and life-safety objectives through the 
use of a smoke control system, perhaps in conjunction with 
compartmentalization, to limit the amount and extent of fire spread in 
the building. However, the Panel cautioned that the feasibility and 
potential benefit of this approach have not been evaluated and would 
require further technical investigation and computational fire and 
egress modeling.
    In sum, design option 2 and the AOC's SALSA plan, together with the 
general recommendations, address all of the life-safety objectives that 
the Panel identified. Design option 3 requires further study and may be 
neither technologically nor economically feasible. Design option 1, 
which the Panel found provided the least potential for risk reduction, 
addresses none of the identified life-safety objectives.
    The OOC has concluded:
  --In addition to whichever design option is selected, each of the 
        general recommendations developed by the Panel for improving 
        the level of fire safety should be implemented on an immediate, 
        short-term, and long-term basis as soon as practicable.
  --Design option 1, unlike the other options, does not create separate 
        fire zones in order to compartmentalize and therefore limit the 
        area of smoke and fire spread. Hence, it would neither prevent 
        the spread of fire, smoke, and toxic gases throughout the RHOB 
        nor address the building's lack of exit capacity or excessive 
        travel distances. Hence, it would not abate citation 19. 
        Consequently, the OOC cannot support this option as currently 
        proposed. Vertical compartments reduce the number of occupants 
        exposed to the effects of a fire, allow the occupants to egress 
        horizontally (an essential feature for those who are physically 
        unable to use stairs), reduce exit travel distances, increase 
        available egress capacity, and create areas of safety to 
        protect occupants from the effects of a fire in an adjacent 
        compartment. That said, we assume that the AOC will continue to 
        extend automatic sprinkler protection and upgrade the fire 
        detection and alarm system to provide area smoke detection 
        throughout the building as contemplated by option 1.
  --Design option 2, if implemented with the general recommendations, 
        would abate citation 19. Options 2a, 2b, 2c and SALSA, in 
        conjunction with the general recommendations, all are 
        sufficient to establish a reasonable level of fire protection 
        within the RHOB. Unlike the cross-corridor solid doors in the 
        SALSA plan that would remain open except in an emergency, all 
        variations of option 2 involve installation of concealed cross-
        corridor accordion (Won Door) partitions. The three variations 
        of option 2 differ in cost, extent of compartmentalization 
        within the building, the degree of building intervention, and 
        level of fire protection.
  --Design option 3 requires extensive further study and computer-
        generated smoke modeling to determine its feasibility and 
        benefit. Accordingly, without such information, the OOC is 
        unable to opine on the merits of this option at this time.
    Thus, we agree in major part with the Panel's findings respecting 
fire and life-safety conditions as well as the measures necessary to 
achieve an acceptable level of fire safety.
    The Panel's final report also contained a legal analysis of the 
OOC's citation authority. We agree with parts of this analysis and 
strongly disagree with other parts. We agree to the extent it 
recognizes that the OOC has clear authority to issue citations for 
alleged violations of the Congressional Accountability Act (CAA), that 
the OOC's issuance of a citation for these types of hazards is 
consistent with Occupational Safety and Health Administration's 
practices regarding similar historic buildings, and that these hazards 
can reasonably be viewed as a violation of section 5 of the 
Occupational Safety and Health Act of 1970 (OSHAct). However, we do 
take strong issue with the report respecting two significant matters as 
to which we believe it is in substantial error. First, it questions the 
authority of this office to require compliance with the safety and 
health standards promulgated by the Secretary of Labor under the OSHAct 
absent adoption by OOC of regulations incorporating those standards and 
approval of those regulations by the Congress. The analysis disregards 
the plain language of the CAA requiring employing offices to comply 
with the standards. In so doing, it ignores the well-recognized 
distinction between ``standards'' and ``regulations''. Only the OOC 
promulgated regulations that implement standards, unlike the standards 
themselves, require congressional approval. The legislative history of 
the CAA supports this interpretation of the CAA. Second, the analysis 
errs by challenging the exclusive authority of the general counsel of 
the OOC to make compliance decisions and to enforce its citations. 
Again, the CAA makes plain that this enforcement authority lies 
exclusively with the general counsel of the OOC.

    Senator Nelson. Sure. We'd like them for the record. But, 
can you give us, generally, some idea of whether--and maybe 
this is a better question for Mr. Ayers, as an architect--are 
they consistent with architectural integrity? Because that was 
one of our concerns. Obviously, we want things to be safe. But, 
we don't want to destroy the architectural integrity. Were the 
recommendations, do you think, consistent with that?
    Mr. Ayers. I think so, Mr. Chairman. The group did go out 
and look at a number of other historic buildings, both locally 
and in other cities, and determined that other buildings in 
other jurisdictions have implemented the kind of controls we're 
looking to implement, as well. And many jurisdictions have 
decided to implement them, and some have decided, ``We're not 
going to implement them.'' I think the blue ribbon panel gave 
us a series of recommendations that go from ``do nothing,'' was 
one of their recommendations, through sort of a sliding scale 
of implementing full building smoke compartmentation throughout 
the building. I think, ultimately, the answer will be somewhere 
in between.
    Senator Nelson. Okay. Thank you.

                 <greek-l>AOC deg.CAPITOL DOME PROJECT

    For the Capitol dome project, last year you requested, we 
had included, in our fiscal year 2011 bill, $20 million for 
repairs to the Capitol dome; and because of the continuing 
resolution, the funding has not been made available. Can we 
still begin the project, given the timeframe of the 2013 
Inaugural? I think that was one of the time points that was 
important. Or, will we have all kinds of construction going on 
in the Capitol dome at the time of the Inaugural?
    Mr. Ayers. We certainly cannot let that happen, Mr. 
Chairman----
    Senator Nelson. Right, exactly.
    Mr. Ayers [continuing]. And rest assured, we won't.
    Senator Nelson. All right.
    Mr. Ayers. We've looked at that, and we think we can still 
implement that project up until June of this year. If we don't 
receive that money prior to June, we think it's best to 
postpone it until after the 2013 Inaugural. It's about a year-
and-a-half in construction. So we're comfortable with June of 
this year.
    Senator Nelson. Okay. And if we do put it off--obviously, 
deferred maintenance has its challenges--does it create any 
more extraordinary issues, in terms of life safety or 
deterioration of the dome?
    Mr. Ayers. I wouldn't characterize it as extraordinary, no. 
Waiting from 2011 until 2013 would not be extraordinary, in my 
mind, but deterioration will increase.
    Senator Nelson. But, we are going to have to do it----
    Mr. Ayers. Yes. It is of immediate urgency.
    Senator Nelson [continuing]. As I understand it.
    Mr. Ayers. Yes, sir.

         <greek-l>AOC deg.UTILITY TUNNEL REPAIRS--RADIO PROJECT

    Senator Nelson. On the utility tunnel repairs, you 
requested $17.4 million. Are you on schedule to complete the 
repairs in 2012, recognizing we're still dealing with 
continuing resolutions?
    Mr. Ayers. Yes, Mr. Chairman. We are on schedule. We're 
very confident we will complete that required work by June 
2012.
    Senator Nelson. And I know you also have some 
responsibilities for the Capitol Police (USCP) radio project, 
the facilities portion. Can you give us a bit of an update on 
your work with the USCP radio modernization effort, recognizing 
how important it is for that to function the way we want it to 
function for Capitol Hill's security?
    Mr. Ayers. I'd be happy to. That is a very important 
project. We have four overarching responsibilities as part of 
our work on that project. One is the design and construction of 
the primary site. The second is the design and construction of 
the mirror site, or the backup site. Third, is the creation of 
pathways and conduits for the antenna, to be run throughout all 
of the office buildings here on campus. And then, the last part 
of that is coordinating throughout the District of Columbia, 
finding places and antenna towers to lease antenna space and 
get utilities to that space.
    So, on the primary site, we are nearly finished with that. 
I think we're about 95 percent complete with construction. On 
the mirror site, we've just awarded the construction contract. 
We'll be finished with that by July or August of this year, so 
both of those are within schedule. The antenna infrastructure 
within the buildings is proceeding well and on schedule. We've 
completed a number of buildings, like--the CPP and the USCP 
headquarters, among others, are complete, and others are in 
progress. And we're comfortable with the schedule there. And 
then, finally, the leasing of antenna sites throughout the 
city; we are just now getting started on that process, 
identifying the sites and working with the radio manufacturer 
or, radio designer, U.S. Naval Air Systems Command, to study 
the interference between their system and other antennas that 
are on the sites that we've outlined.
    Senator Nelson. Thank you. I know Senator Hoeven will be 
interested in the radio project, given that when 9/11 occurred, 
it was clear that our radio facilities were totally inadequate 
to deal with the communications required on Capitol Hill, 
perhaps just in ordinary circumstances, let alone the emergency 
that we experienced. So, when Sergeant at Arms Gainer and Chief 
Morse are here, we'll probably go into that a little bit more.
    Thank you.

                <greek-l>AOC deg.REDUCING COSTS/SERVICES

    Senator Hoeven. Well, I'm not too surprised to hear that. I 
think there were a lot of places around the country--found out 
on 9/11 that, in terms of their radio systems and 
interoperability that they had some challenges. So, I'm not too 
surprised to hear that.
    Ms. Chrisler, maybe you could comment a little bit on some 
of those level to a reduction in funding. How--and I know 
you're certainly personnel-intensive, in terms of what you do--
how would you approach that?
    Ms. Chrisler. Thank you for the question. And it's 
something that we've thought about.
    As you mentioned, our agency is heavily personnel- and 
resource-reliant, with respect to our infrastructure. The other 
side of that same coin is that the work that we have is largely 
controlled by the congressional population, with respect to our 
DRP. We have counseling services, mediation services, hearing 
services, and administrative dispute resolution services that 
we offer to employees and employing offices when they need 
them. So, they come to us when they need us. So, it's not as if 
it's a cost or an amount of work that we can control. If, by 
some instance, 100 employees come to our office in a given 
month, requesting our services, we're mandated to provide those 
services. So, in some respects, the costs that we incur are not 
within our control.
    Even with that in mind, there are things that we've thought 
about. There are things that we have done to reduce the cost of 
our services. We've engaged in interagency agreements with 
executive branch agencies and other agencies to reduce the cost 
of our mediation and our hearing services. We have 
contemplated, and have tried to organize, teleconferences for--
we have a five-member board of directors, who are experts in 
the substantive areas of our office and live across the 
country. They convene in Washington, DC, periodically, for 
meetings. We try to cut those meetings down and hold them 
telephonically so that we can save costs. So, the cost-cutting 
efforts that we've made continue.
    Looking forward at a reduction in our funding means that we 
will have to reduce--prior to reducing services, we'll have to 
look at a different way to do business. Perhaps, the additional 
mediation services that we offer employees, we won't--and 
employing offices--we won't be able to offer. We may have to 
limit the rounds of mediation. We may have to limit our 
services in other respects. So, not eliminating the services, 
because it's a--it's a mandate of the statute, but reducing the 
duration of the contracts, reducing the number of contracts, 
renegotiating our contracts with other entities, is something 
that we've looked at, as well. That's the services.
    The other side of that is that we have staffing that would 
more than likely need to be reduced. Within our Safety and 
Health Program, we have inspectors. We're short one inspector 
now, so we're--with additional cuts, we would be looking at 
additional shortages, which is difficult to conduct the work 
that we are mandated by the statute to do, and in a--in a cost-
effective way. The risk-based approach to inspections and 
abatement is the smart way to do things. But, it is resource-
intensive. So, looking at where we're going to save money. Are 
you going to save money on the front part? Or, are we going to 
save money on the back part? And the back part is where the 
money--the real savings comes in, because we're looking at 
reduction of illnesses and injuries and accidents and workers 
compensation. That's a real savings.
    Similar with the DRP. We have the mediation, so we can cut 
funding and cut services on the front end, or do we want to cut 
it on the back end? Cost savings when we enter into an amicable 
settlement between the parties, as opposed to engaging in the 
protracted litigation.
    These are the considerations that we've made.
    Senator Hoeven. So, if your requirement to handle these 
cases for remediation, and so forth, remains the same, and you 
have a smaller resource base, does that mean it just generates 
a backlog? Is that essentially what ends up happening? Or what 
are you anticipating?
    Ms. Chrisler. Right. Pardon me. That's one of the results. 
We would have the backlog. And again, we would have to reduce 
the services. So, yes, the services would be offered in the 
dispute resolution, but they wouldn't be offered to the level 
that we offer them now. We work with the parties exhaustively 
for them to reach a mutually acceptable settlement or a 
mutually acceptable agreement. You know, we may not be able to 
extend services that comprehensively. We may just be able to 
just give them the bare bones and meet the requirements of the 
statute, as opposed to engaging with them and helping them meet 
the solution that's best suited for them. That's on the dispute 
resolution end.
    On the safety and health end, we may not be able to conduct 
inspections of every facility. We've--we completed three 
comprehensive biennial inspections. So, each Congress, we've--
for the last three Congresses, we've conducted comprehensive 
inspections. So, we've seen a lot of places. We've worked with 
the employing offices in a lot of areas. So, we may not, to the 
extent that we have in the past, conduct inspections of 
absolutely every facility. We may rely on the offices to 
conduct self-inspections. And then we would spot check and go 
to those areas that have the highest risk. So, yes, we would be 
offering the services that we're required to, but at a much 
lower level.
    Senator Hoeven. Are there statutory changes that come to 
mind that would help you streamline any of that process?
    Ms. Chrisler. As I sit here, I can't think of a statutory 
change that would assist us in that, because the statute is 
requiring that we offer the services that are necessary to give 
the protections that the act contemplates, that we offer the 
inspections, and that we engage in administering the rights 
that the statute is providing to employees and employing 
offices. So, it's not a matter of amending the statute. That 
would result in limiting the protections, which I don't think 
anyone is really looking to do.
    Senator Hoeven. Okay. But, I think it's something to think 
about if there are statutory changes that would strengthen your 
ability to do some of these things more effectively or more 
efficiently, in a streamlined way--contract for services, any 
number of things--you ought to think about it. And then, 
depending on the wishes of the Chairman, I do have another 
question about your computer system, but I can come back----
    Senator Nelson. You can go ahead.
    Senator Hoeven. Okay.
    You're operating on a computer system that requires, as I 
understand it that each of your employees use two computers. 
And I have to use two BlackBerrys, because one's personal and 
one's for all the Senate stuff. And I do my best to keep all 
that in the right spot. But, one's personal, so I really only 
have one BlackBerry for Senate use. But, my understanding is 
that your employees are having to operate with two work 
computers, which doesn't seem like the most cost-effective or 
efficient way to do things. So, if you would, just explain why 
that's the case and then what your plan is to migrate away from 
it, and the costs involved the one time, and then the savings 
you would hope to realize.
    Ms. Chrisler. Sure. Thank you. And you're absolutely right, 
it's not effective--it's not efficient way to conduct business. 
And as we migrate to a more technological society, it hinders 
the work of our staff. It prevents us from telecommuting. It 
prevents us from accessing documents remotely. The reason 
behind it is because of the location of the agency and the way 
that our IT structure is designed. Right now, our agency is 
physically located in the Adams Building of the LOC. And as a 
very small agency, we, in essence, piggyback on their server to 
connect with the outside world. So, we have one computer that 
connects to the LOC's server that allows us to access the 
Internet and communicate with the outside world. The LOC has--
administers that network. And we have an internal network, 
where we keep our confidential information claims that 
discrimination--claims that--are filed against Members of 
Congress--all confidential information that we maintain under 
the statute, we maintain within our internal server. So, we 
have two computers that we work on. It's not efficient. It is 
cost prohibitive. But, because of the way our office functions 
and the mandates that we have, it's the best way for us, at the 
moment, to protect that information.
    What we're doing is working with the LOC to be able to 
migrate our two computers into one and put up a firewall so 
that we can maintain the protection of the information, but 
still be connected to the system, because that is very cost 
effective for our agency--to be able to utilize the LOC's 
network for the external--the Internet purposes. As a very 
small agency with, what you see, a very small budget, having 
the fiscal--the financial responsibility of maintaining that on 
our own would just be costs that are unnecessary----
    Senator Hoeven. Right.
    Ms. Chrisler [continuing]. Given the situation that we have 
now. So, putting that firewall up and--will allow us to migrate 
to the one box.
    Senator Hoeven. Mr. Chairman, I have a couple followups. 
Should I continue, or would you----
    Senator Nelson. Yes, go ahead.
    Senator Hoeven. Okay.
    Well, then building the security system or the firewall is 
the issue, right? In other words, it's most cost effective for 
you to use the LOC computer. As you said, small agency. That 
makes sense. So, you're on their server and so forth.
    Ms. Chrisler. Right.
    Senator Hoeven. So, the real issue is just programming, 
building an adequate firewall for that secure information.
    Ms. Chrisler. That's right. And that's a cost and that we 
have requested in prior appropriations requests. It's something 
that we continue to work with the LOC on. Right now, they're 
engaged in an extensive restructuring of their security 
systems. And they have been working with us on migrating to one 
box, but we've made some modifications to that plan, because of 
the changes that they're making to their security system. So, 
we continue to work with them to get that firewall up. Once 
that's in place, we can move forward for our cost savings. And 
the numbers, I can provide for you for the record.
    Senator Hoeven. Do they, in essence, act as a service 
bureau, where you just pay them a fee out of your budget for 
the use of their time on their servers and their computers? Is 
that how it works?
    Ms. Chrisler. We have an interagency agreement with the LOC 
that involves a lot of different things, and one of them is for 
the IT work.
    Senator Hoeven. And are they actually building that 
security system, or firewall, so that you then can migrate to 
the one computer, and it's just a matter of them getting that 
done?
    Ms. Chrisler. I don't think they're building it. We've got 
IT staff within our agency that have taken this initiative, and 
we're working collaboratively with the LOC from our end. And 
so, I don't think they're needed to build it, but they--we need 
their help to implement it, of course.
    Senator Hoeven. And they're working on that now.
    Ms. Chrisler. Well, they are--they've indicated that they 
will continue to work with us once they've met some other 
priorities that they have.
    Senator Hoeven. Okay. If you could have them give us that 
cost, that anticipated time to build it, and then what the 
resulting savings might be, that would be helpful.
    [The information follows:]

    The Congressional Accountability Act of 1995 requires the Office of 
Compliance (OOC) to maintain confidentiality of certain information 
that is brought to our agency. As a result, we currently maintain a 
dual network system: one internal/closed system (which consists of 
servers, desktops, custom applications, and an email system) to allow 
for the maintenance of confidential information, and one external/open 
system, provided by the Library of Congress (LOC) to allow for access 
to the Internet. The OOC maintains agency data within the closed 
network.
    This configuration allows the agency to maintain confidential 
information; however, there are many drawbacks in the current 
separation of the networks. There are significant costs associated with 
maintaining the internal network infrastructure; the cost of updating 
two computers (one for the external and one for the internal) is an 
additional expense incurred by the agency; and the loss of productivity 
for each OOC employee to use two computers daily is an inefficient way 
to conduct business.
    The OOC has designed a plan to install a firewall on the backbone 
of the LOC network. This design will allow the OOC to eliminate the 
internal network and move all OOC servers, custom applications and data 
to the open LOC network, where our Internet-accessible desktops 
currently sit. The firewall will provide the necessary security 
measures required to maintain the confidentiality of OOC data. The 
OOC's information technology staff will no longer need to maintain an 
internal email system or internal desktops, and the human resources 
costs associated with operating in a dual network environment will be 
eliminated.
    The OOC expects to realize the following from the elimination of 
the internal network:
  --One computer for each employee, rather than two;
  --Offset a forthcoming $50,000 cyclical computer desktop replacement 
        cycle in fiscal year 2012; and
  --A significant decrease in annual productivity costs.
    Currently, the OOC loses 3 percent of productivity per staffer, 
daily, as a result of our current configuration. Given an agency of our 
size, with our limited resources and the multiple job duties performed 
by each staffer, a 3 percent daily loss is comparable to a 30 percent 
loss in a larger agency.

    Ms. Chrisler. Thank you. And I want to thank you for your 
question about changes to the act. That is something that we 
will think about. We'll talk to Rachelle and Lila about and----
    Senator Hoeven. Well, sometimes you have to go through a 
series of steps which may make sense or, based on the statute, 
now that you've been doing this you may want to say, ``You 
know, if we didn't have to do a couple of these things, we 
could still get a good outcome.''
    Ms. Chrisler. Sure.
    Senator Hoeven. So. If there is something like that.
    Ms. Chrisler. Thank you.
    Senator Hoeven. You bet.
    Senator Nelson. In that regard, Ms. Chrisler, probably the 
act requires you to take certain actions for inspections. It 
doesn't specify how many or how often or that you have to do 
it, which is what--I believe--you are trying to do as 
judiciously as you can and with as much effort toward 
protecting life, fire, and safety issues. So, maybe it wouldn't 
be required to change the language authorizing you to do it, 
and empowering you to do it, unless it's too specific and you 
can't meet the requirements because of the reduction in staff.
    Ms. Chrisler. That is--that the language within this--the 
OSHA inspection section is something that we will definitely 
take a look at and sit down and examine thoroughly to address 
the amount of inspections. I do believe it does say ``every 
Congress.'' So, there--it gives us that requirement that we do 
have to do this every Congress. And it may say ``each 
facility.'' So, it may be specific. But, we'll take a look at 
it and follow up, as necessary.
    Senator Nelson. And if it needs to be modified, it wouldn't 
necessarily prohibit self-inspections with oversight. Is that 
possible?
    Ms. Chrisler. I'm sorry?
    Senator Nelson. Well, if we did change the language in some 
way, you could still have directions for inspections without 
prohibiting self-inspection. In other words, authorizing some 
self-inspections with your oversight, with your requirements, 
and then seeing if they comply.
    Ms. Chrisler. And I think that we would want to maintain 
that relationship.
    Senator Nelson. Absolutely.
    Ms. Chrisler. Yes.
    Senator Nelson. I understand that. Yes.

       <greek-l>AOC deg.INTEGRATING FINANCIAL MANAGEMENT SYSTEMS

    Now, we've been thinking, for some time, how we can realize 
some cost savings and efficiencies by converting the all the 
legislative branch agencies' financial management systems to a 
single entity. And we're back to the LOC. The General 
Accounting Office has found this idea to be a logical approach. 
And, as a first step, the USCP recently went through a very 
successful conversion of their financial management. We're not 
talking about IT, here, as much as it is financial management 
system to the LOC's. Mr. Ayers, have you looked at perhaps 
doing that, from the standpoint of your office?
    Mr. Ayers. We have begun to, Mr. Chairman--we have begun to 
consider that. Our proposal was to let the USCP do it first----
    Senator Nelson. Yes, sure.
    Mr. Ayers [continuing]. Quite frankly, and shake out the 
bugs for us. And I think they've done that. It was successful. 
And there were very few and very minor issues with that 
conversion. I think that has paved the way for the rest of us 
in the legislative branch to do the same thing.

                     <greek-l>AOC deg.GAP ANALYSIS

    Senator Nelson. Well, I have to ask you, Ms. Chrisler, has 
Dr. Billington already done that in your case? Are you looking 
at it yet?
    Ms. Chrisler. This is something that our agency has been a 
part of for some time now.
    Senator Nelson. Yes.
    Ms. Chrisler. Yes.
    Senator Nelson. And he continues to collect his money, I 
suspect.
    Mr. Ayers, have you done what might be called the ``gap 
analysis'' that might be important to close in that connection, 
now that perhaps the first entity, the USCP have been able to 
go through it? Because there will be a gap to close.
    We have not done a gap analysis. We do think that one 
should be done before we move our appropriations over and our 
financial management systems over. We obviously did convert, a 
year ago, as you may know or may recall, Mr. Chairman, that we 
were using a company, that was hosting our financial management 
system. We competed that and moved it to a different company, 
and saved $1 million a year in doing just that.
    So, we're familiar with those conversions. We do think a 
gap analysis is necessary. But, we've not done one yet.
    Senator Nelson. You did mention that you're working on the 
CPP. I notice you're requesting $16.4 million for the east 
plant chiller relocation project. Is that as a result of the 
question of compliance, the citation that was issued some time 
ago?
    Mr. Ayers. No, Mr. Chairman, that's not a result of a 
safety problem or anything from the OOC or citation or anything 
like that.

             <greek-l>AOC deg.ENERGY REDUCTION REQUIREMENTS

    There are two areas in the CPP where we make chilled water. 
One of them is in the west plant, and there's money in our 2012 
request to upgrade some of those chillers. And, similarly, 
there are two relatively new pieces of equipment--I think they 
date from 2003--that are in the east plant that are not 
connected to the west plant. We need to move them into the west 
plant to utilize those pieces of equipment. So, that's what 
those two projects are.
    Senator Nelson. I see. Will we realize any savings from the 
House's decision to discontinue the Greening the Capitol 
Initiative? In other words, I know that initially, there are 
costs associated with conversion, but not converting, will we 
save some money up front that would perhaps cost us on the back 
end later?
    Mr. Ayers. Would you repeat the question?
    Senator Nelson. Well, what I'm saying is, the House has 
decided, as I understand it, to discontinue the project called 
``Greening the Capitol.'' In other words, making it much more 
energy efficient, with some changes to requirements that would 
do it. For example, if you look at your fiscal year 2012 
budget, do you have anything in that budget for the greening 
project that if they prevailed, would not be spent for that 
project up front, recognizing that investing up front for the 
greening project could end up being cost effective at a later 
date? But, there could be some cost savings up front of not 
having the money spent.
    Mr. Ayers. Yes, I understand. I think if that program is 
discontinued, I think the immediate savings would be the staff 
that are focused on that, that are funded by the Chief 
Administrative Officer of the House. I think, subsequent to 
that, in the AOC's appropriation, we have a number of energy-
savings projects that we think are required for us to meet the 
energy savings and----
    Senator Nelson. But, they wouldn't necessarily be a part of 
that initiative.
    Mr. Ayers. They would not. Not necessarily, no.
    You know, all of the--or, most of the energy saving 
initiatives and ideas that come out of that office, we are the 
implementer of those. And ultimately, they help us meet our 
statutory energy reduction goals.
    Senator Nelson. But it also raises the questions about, 
Where do you cut and what do you cut?
    Thank you.
    Senator Hoeven. Thanks, Mr. Chairman, just a couple other 
questions.
    Mr. Ayers, how would you, in terms of both this concept of 
a level budget and then even a 10 percent reduction budget, so 
I know what those scenarios look like, and that we're prepared. 
And I also think that that will lead you to come back to me and 
really point out the tough spots. And we'll do what we can.

         <greek-l>AOC deg.DEFERRED MAINTENANCE VS. NEW PROJECTS

    But, under that scenario, just address, for a minute, how 
much you bring in on the deferred, versus how much on the new. 
That's one question. Because there may be some correlation 
there. In other words, if you don't do new--some of the new 
stuff, you may have to do more of the deferred, and so forth. 
And again, that may be something you have to kind of analyze. 
That would be one question.
    The other is, in these projects, both the new and the 
deferred, does that affect your personnel cost? In other words, 
are all the costs of doing those projects--is the personnel 
cost, the operating variable cost, built in there? Or, if 
you're not doing some of those new projects, then does that 
make a difference in terms of what your other operating and 
personnel costs are?
    So, those two questions.
    Mr. Ayers. Yes, sir. I think there may be a little 
confusion over the two lists that we provided in our budget 
that you may have before you. One of those lists, and the first 
one, is called our ``Recommended Project List''. And I think 
that totals $179 million.
    Senator Hoeven. $179,168,000.
    Mr. Ayers. Correct.
    Senator Hoeven. Not including the $50 million that's in 
what you call this ``House Historic Buildings Revitalization 
Trust Fund'', which I'm going to ask you about, too. So.
    Mr. Ayers. Yes.
    Senator Hoeven. That's the list I'm looking at.
    Mr. Ayers. So, that list is the list of projects that we 
recommend be funded.
    The second list that we include in our budget, simply for 
information purposes only, is the second page there. That's a 
list of projects that I've considered. My staff has brought 
them to me. They're ready to execute. And we have made the 
decision to defer those and not seek the money for those.
    Senator Hoeven. Oh, so that's not deferred maintenance.
    Mr. Ayers. No, no.
    Senator Hoeven. That's actually deferred projects. So, this 
$128,982,000 is--that's what's coming someday, not----
    Mr. Ayers. Yes.
    Senator Hoeven [continuing]. Deferred maintenance that 
needs to be addressed.
    Mr. Ayers. Some are deferred maintenance, many of them. 
They need to be addressed. But I've made the decision not to 
request them this year.

           <greek-l>AOC deg.OPERATIONS BUDGET PERSONNEL COSTS

    Senator Hoeven. So, your priority list is your priority 
list. Got that. Then what about the variable costs?
    Mr. Ayers. The way we approach these capital improvements, 
most of those have personnel costs built into them. And 
typically, if we do a major construction effort, we obviously 
will have to ramp up staff at the beginning and throughout it; 
and at the end, that staff then departs. And we do that, 
typically, through consulting services, construction management 
companies, and companies that provide program and construction 
management. Those kinds of costs are built into the numbers you 
see before you. However, our staff typically remains the same 
size. We hire consultants to help us through the ups and downs 
of various capital improvements.
    Senator Hoeven. So, it won't affect your other personnel 
and operating costs.
    Mr. Ayers. Not generally.
    Senator Hoeven. How far we go down that list, which we'll 
see, won't affect your other operating line.
    Mr. Ayers. Well, I think we could fund all of those 
projects in our project operations budget, and staff would not 
go up, because we would hire consultants to temporarily help us 
with those. When the projects are over, the consultants go 
away.
    Senator Hoeven. Then the----
    Mr. Ayers. So, our operations side stays the same.
    Senator Hoeven. Okay. Then the other thing, as it relates 
to the operating, is, you know, with our analysts, we'll want 
to make sure that you go through and really look at the 
operating, vis a vis how far we go down that capital project 
line. I mean, it's going to be important to hit the right 
balance there, particularly in your case. Obviously, in Ms. 
Chrisler's case, it's tougher, because it's pretty much all 
people and operating. But, we need a good balance, so we're 
taking a good look at the personnel and the operating line.

  <greek-l>AOC deg.HOUSE HISTORIC BUILDINGS REVITALIZATION TRUST FUND

    The second thing is, if you would, just tell me how this 
$50 million works, on what you refer to as the ``House Historic 
Buildings Revitalization Trust Fund''.
    Mr. Ayers. Yes, sir. On the first one, you're absolutely 
right, finding that right balance between the capital budget 
improvements--the operating budget. And our look at that is 
that, as we tighten the capital projects, the value and the 
necessity for the operating budget increases, because we're not 
doing the projects, we're not revitalizing, and we're not 
replacing equipment; therefore, our staff that keeps this 
equipment running day-to-day becomes more and more important to 
that. So, finding that balance, you're absolutely right, is 
important, and not cutting one or the other one too deeply.
    On the House Historic Building Revitalization Trust Fund, 
we think that that's a really important approach to the long-
term viability of the Capitol campus. There are--as you see--
have seen in our budget, there are some major building 
revitalizations that are before us--5 years out, 10 years out, 
15 and 20 years out. And those building revitalizations could 
cost a half a billion or a $1 billion, depending upon what 
building they are. And to be able to accommodate a project of 
that magnitude and make a request of $750 million in one fiscal 
year, and to have the legislative branch be able to appropriate 
that in one year, for us to execute the building 
revitalization, we don't think is a sustainable approach, and 
we don't think it's reality, quite frankly.
    So, we think a better approach is to invest in our future, 
and invest in our infrastructure incrementally, and to build up 
a corpus of funds so that when a historic building needs to be 
revitalized, we have money there to do it.
    And I think, second, with that--and most importantly to 
me--is that if we don't do that, that money will then compete 
for the projects, the deferred maintenance projects that are on 
this list. And those deferred maintenance projects won't get 
done. And that's when I think we really get in trouble with our 
building systems and our infrastructure.
    Senator Hoeven. Well, and you, being an architect, would 
have a good understanding of how best to do that. That's a 
better approach than a phased approach, where, if it were $50 
million, one option would be to put $50 million in that fund to 
build to a certain number that you can do the whole project. 
Another approach would be to say, ``Okay, we're going to do 
phase one of five phases, or whatever. And we're going to do 
$50 million worth of work.'' So, that's a better approach than 
a phased approach, is what you're saying?
    Mr. Ayers. Well, I think both of those are viable 
approaches, quite frankly.
    Senator Hoeven. Okay. Is it project dependent? Is that kind 
of how that works?
    Mr. Ayers. It typically is project dependent. It depends. 
There are efficiencies and inefficiencies in both of those 
approaches. Phasing, obviously, is a little more inefficient. 
And when we have to move people out of a building, it become 
extremely complicated.

                   <greek-l>AOC deg.BUDGET CHALLENGES

    Senator Hoeven. Sure.
    Is there anything that either of you would want to bring up 
that I haven't asked you about? I mean, is there something 
that, as you look at these budgets, or as we've talked about 
these things today, that you think it's important to bring up 
that we haven't talked about?
    Mr. Ayers. Not me.
    Ms. Chrisler. I think that we've talked about the 
significant issues. I would love to be able to maintain the 
line of communication and continue to meet with Rachelle and 
Lila so that we can work through these issues as we explore the 
different levels that you've mentioned and, you know, deal with 
the challenges that we face.
    Senator Hoeven. Thank you. And I think that's absolutely 
the right approach. And I appreciate that.
    Thanks.
    Senator Nelson. Yes, I would agree 100 percent with that. 
We're facing a situation where a number of our colleagues are 
out there with a number or a percentage for cuts, in search of 
a plan. Our approach is to find the plan and work our way into 
it, so that we don't get into a situation where, in order to 
meet the objective, somebody thinks we should close the CVC 2 
days a week, or something like that.
    What we want to do is preserve the security on Capitol 
Hill. We want to preserve the integrity of the structures on 
Capitol Hill. We want to preserve the function of Government on 
Capitol Hill. We're just faced with doing it in tight times. 
And so, working together, I think, will help us develop the 
smoothest possible approach to meeting all those objectives, 
and doing the best we can with the taxpayers' money in the 
process.
    So, thank you. I've asked everything I plan to ask today, 
except I'll ask the same thing of my colleague----``What 
question haven't I asked that I should ask?'' You know, I guess 
that's sort of the way to hear it. If you think of something, 
please, during our continuing discussions, share it.
    Mr. Ayers. Thank you.
    Senator Nelson. Thanks, to both of you.
    Ms. Chrisler. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
                 Questions Submitted to Tamara Chrisler
               Questions Submitted by Senator John Hoeven
                              budget cuts
    Question. How would a reduction in appropriated funds affect your 
operations, services, and programs?
    Answer. We believe that any reduction in our funding below current 
levels would be a false economy because such action would only serve to 
shift costs to or increase costs for other legislative branch agencies 
as well as the judicial branch.
    Based on our analysis, we have determined that any reduction in 
funding for our occupational safety and health program would seriously 
jeopardize the risk-based inspection process we have inaugurated at the 
urging of this subcommittee. The importance of our biennial inspections 
in identifying and reducing hazards cannot be overemphasized: during 
the 109th Congress, we identified more than 13,000 serious hazards; in 
the latest biennial inspection in the 111th Congress, we found 5,400 
hazards--a significant reduction in hazards and a corresponding 
increase in safety. The safety and health inspections are currently 
being performed with a skeletal staff consisting of one full-time 
employee and one full-time contractor. With higher-risk areas being 
dispersed over an area that is greater than 17 million square feet, the 
inspection staff is spread as thin as it can be. The risk-based 
inspection program requires that the work of these inspectors be 
supplemented by staff that can thoroughly analyze the procedures being 
followed in higher-risk areas such as the machine shops, mechanical 
spaces, and utility areas so that hazards can be identified. This staff 
must then work with the employing offices to adjust processes and 
procedures so that potential hazards are minimized or abated. To 
perform this process in a collaborative manner requires more time and 
resources than simply performing walk-through inspections and issuing 
citations wherever violations are found. While we are confident that 
implementing this risk-based inspection process is worth the time and 
resources the Congress has invested in the program because it will 
result in a significant reduction in injuries illnesses, and the 
related costs incurred by legislative branch agencies when these 
injuries and illnesses occur, we are also very cognizant that we have 
stretched our resources as far as we can to provide this enhanced 
service. As it stands now, we are uncertain whether we will be able to 
complete this targeted schedule with our current level of funding. Any 
further reduction in funding would probably force us to abandon the 
risk-based approach and return to an enforcement method involving walk-
through inspections and citations. This would mean that the anticipated 
savings in injury costs associated with the risk-based program would be 
lost.
    Moreover, as we look to the immediate future, the Office of 
Compliance (OOC) sees an increased need for thorough inspections of 
higher-risk areas as maintenance and capital improvement projects are 
being deferred in order to save costs. Deferral of capital projects not 
only increases maintenance costs, but increases the need for frequent 
safety inspections. If facilities use mechanical and electrical systems 
well beyond their useful life expectancy, the risk that these systems 
will fail and cause fire or injury increases dramatically. It may make 
sense to defer expensive capital improvement projects during this time 
of budget constraints; however, it must be recognized that this type of 
deferral will also increase the need for maintenance and inspection 
(and the costs associated with them). When these systems reside in 
buildings with known egress and fire-hazard deficiencies, the failure 
to be vigilant about safety inspections can be catastrophic. Interim 
measures such as increasing fire prevention through the use of 
inspections are a cost-effective way to allow continued use of outdated 
facilities and systems while maintaining an acceptable level of safety.
    Similarly, any reduction in the OOC's funding would reduce our 
Americans With Disabilities Act (ADA) inspections and would be more 
than offset by the increased costs that the Architect of the Capitol 
(AOC) would incur. As it stands, ADA inspections can only be performed 
occasionally when we are able to squeeze time out of the schedules of 
employees and contractors who are assigned to other duties. There is no 
specific funding for this program so there is nothing there to cut. In 
addition, this program is being administered in a way that should 
result in significant savings. The ADA requires that new construction 
and alterations be designed and constructed in strict compliance with 
the ADA Standards for Accessible Design. In the past, the AOC has 
incurred additional costs when it was discovered that alterations and 
new construction did not comply with the ADA standards. The OOC is now 
finding ways to work with the AOC at the design and preconstruction 
stages to ensure that new construction and alterations comply with the 
ADA, thereby saving the costs associated with re-constructing completed 
projects so that they comply with the standards. Our inspection of the 
Capitol Visitor Center, prior to the completion of construction, is a 
perfect example of how ADA inspections result in cost savings.
    In addition, reducing funding to our employment dispute resolution 
program would result in diminished services and not in any net savings. 
The success of the confidential counseling and mediation program is 
largely due to the OOC's ability to offer these services in an 
expedited manner. The Congressional Accountability Act (CAA) requires 
that counseling be completed within 30 days of the request for 
counseling and that mediation, which lasts 30 days, be commenced within 
15 days of the end of counseling. See CAA Sec. Sec. 402 and 403. Based 
upon our experience with this program, we have found that employment 
disputes can often be resolved efficiently and less expensively when 
access to confidential mediation services can be provided before the 
parties incur substantial costs, become entrenched in their stances, 
and begin ``trying'' their cases in the press. We, therefore, believe 
that any cuts to this program will reduce the level of mediation 
services and drive up the cost of unnecessary litigation.
    The OOC also anticipates that the number of requests for counseling 
relating to employment disputes will increase as funding for 
legislative branch offices is reduced. These budget cuts will result in 
more layoffs and terminations, which in turn will likely result in more 
employees filing requests with the OOC challenging those layoff and 
termination decisions. Furthermore, because the cuts are occurring 
throughout all levels of Government, more terminated and laid-off 
employees will be unable to obtain another Government position after 
termination or layoff. This too is likely to fuel an increase in the 
number of employees filing with the OOC. As unemployment rates 
increased in the private sector during the last few years, the Equal 
Employment Opportunity Commission (EEOC) saw a dramatic increase in the 
number of discrimination complaints filed with its offices. In fiscal 
year 2010, the EEOC received almost 100,000 complaints (99,992). In the 
10 years between fiscal year 1997 and 2007, the EEOC consistently 
averaged approximately 80,000 complaints per year (fluctuating between 
75,428 and 84,442). In the last 3 years, the EEOC is averaging closer 
to 95,000 complaints per year (95,402 in fiscal year 2008, 93,277 in 
fiscal year 2009, and 99,992 in fiscal year 2010). The OOC anticipates 
that it, too, will experience a large increase in the number of filings 
as budget cuts cause staff reductions. Again, we do not believe that it 
makes sense to reduce funding for these services at a time of overall 
budget cuts because this is a time when both the need for these 
services will be increasing and the probable litigation costs incurred 
by not providing these services will undoubtedly surpass any apparent 
savings associated with cutting the services.
                           changes to the caa
    Question. Please describe any statutory changes that could help 
make your programs or processes more ``streamlined'' or efficient or 
that would otherwise save money?
    Answer. Pursuant to section 102b of the CAA, each Congress, the 
board of directors prepares a report analyzing current laws and 
determining whether those laws should be made applicable to the 
legislative branch. This most recent 102b report ``Recommendations for 
Improvements to the Congressional Accountability Act'' not only 
provides key recommendations, but also focuses on how these 
recommendations can produce cost savings across the legislative branch.
     safety and health amendments that will result in cost savings
    Subpoena Authority in Safety and Health Investigations.--Unlike the 
Department of Labor (DOL) and other State and Federal entities, 
subpoena authority in aid of investigations was not given to the OOC 
under the CAA. This exemption limits the OOC's ability to investigate 
promptly and effectively safety and health hazards within congressional 
workplaces. Currently, the OOC is dependent on information that is 
voluntarily provided by employing offices and employees when it 
conducts safety and health investigations. In some instances, the 
absence of investigatory subpoena authority has significantly 
contributed to protracted delays in investigations, which results in 
additional personnel costs for OOC staff conducting the investigation 
and congressional staff responding to the investigatory requests. 
Inordinate delay or provision of only partial information results in 
faulty witness recollection, the lack and loss of evidence, untimely 
completion of inspections, and unnecessarily prolonged employee 
exposure time to hazardous conditions.
    Safety and Health Recordkeeping.--The recordkeeping requirements 
included in section 8c of the Occupational Safety and Health Act of 
1970 recognize the need for full and accurate information to administer 
effectively a safety and health program. With records, the OOC could 
better pinpoint worksites with high numbers of injuries and illness and 
identify and analyze their causes and use targeted safety programs to 
reduce and prevent such hazards.
    At the urging of this subcommittee, the OOC is no longer conducting 
the type of ``wall-to-wall'' inspections that were performed during the 
prior three Congresses. Beginning with the 112th Congress, the OOC has 
implemented a risk-based inspection process that allows us to focus our 
inspections on higher-risk areas. We implemented this risk-based 
process by hiring an Occupational Safety and Health Program Manager who 
has experience working in the insurance industry performing risk-based 
assessments of safety hazards. She has worked with the employing 
offices to develop a risk-based inspection process that focuses on 
higher-risk areas and allows lower-risk areas to be self-inspected by 
the employing offices based upon criteria established by the OOC, with 
oversight and spot-checking also provided by the OOC. We believe that 
this approach to inspections is consistent with the existing statutory 
language which grants sufficient discretion to the OOC's general 
counsel regarding the procedure and methods used to conduct the 
biennial inspections mandated by CAA Sec. Sec. 215(e).
    While the OOC has implemented this process by compiling a tentative 
and somewhat speculative list of higher-risk areas, the OOC has been 
hampered in its ability to identify higher-risk areas because there is 
no requirement in the CAA that legislative branch agencies maintain 
injury and illness logs or records. Nor does the CAA require that these 
logs or records be provided to the OOC when they are being maintained 
by agencies.
    Without these logs and records, the OOC general counsel cannot 
access the information needed to develop fully and efficiently a 
targeted risk-based inspection program aimed at the causes and 
prevention of occupational injuries and illnesses, as was envisioned by 
this subcommittee. As the DOL recognized, ``analysis of the data is a 
widely recognized method for discovering workplace safety and health 
problems and tracking progress in solving these problems.'' See, 
``Frequently Asked Questions for OSHA's Injury and Illness 
Recordkeeping Rule for Federal Agencies'', www.osha.gov/dep/fap/
recordkeepingfaqs.html.
    In February 2004, the then General Accounting Office (GAO) issued 
its report, Office of Compliance, Status of Management Control Efforts 
to Improve Effectiveness, GAO-04-400. In its report, the GAO made a 
number of recommendations to improve the OOC's effectiveness, one of 
which was to increase ``its capacity to use occupational safety and 
health data to facilitate risk-based decisionmaking'' to ensure that 
the OOC's activities contribute to ``a safer and healthier workplace.'' 
(pp. 4, 14). The inability to acquire relevant and targeted employing 
office accident and injury data (OSHA section 8(c)(2)) hinders the 
general counsel's effort to tailor the biennial inspections, focusing 
its limited resources on work areas that have the highest incidence of 
illness or injury.
      workplace rights amendments that will result in cost savings
    Notice Posting of Rights.--Almost all Federal anti-discrimination, 
anti-harassment, safety and health, and other workplace rights laws 
require that employers prominently post notices of those rights and 
information pertinent to asserting claims for alleged violations of 
those rights. By providing such notices, employees have a clearer 
understanding of their rights. Such notices also serve as a reminder to 
supervisors and co-workers that certain behaviors, such as sexual 
harassment, are not tolerated in the congressional workplace and that 
there are legal consequences for such behaviors. By deterring such 
behavior, it is anticipated that workplace conflict would diminish and 
the Congress would spend less money and time defending against 
discrimination claims.
    Mandatory Anti-discrimination/harassment Training.--The private 
sector and Federal executive branch have long recognized the benefits 
of mandatory anti-discrimination training for all employees. Much like 
with ethics laws, managers who do not understand their obligations 
under workplace rights laws are bound to run afoul of them. By helping 
managers to better understand workplace rights laws, compliance with 
those laws improve. Furthermore, managers will know how to quickly 
address such workplace strife rather than allowing it to fester and 
grow, resulting in greater legal consequence. It also informs employees 
about their workplace rights and how workplace conflicts can be 
resolved. The short amount of time spent on anti-discrimination 
training ``at the front end'' can prevent much greater time spent on 
litigation. The OOC is looking into the possibility of implementing 
this training through computer-based programs, a method that appears to 
be on the increase in the private sector. This could prove to be cost-
efficient as well as effective.
    Consolidation of Dispute Resolution Programs for All Legislative 
Branch Agencies.--Another area of potential statutory change involves 
expanding the coverage of OOC procedures to include those legislative 
branch agencies currently excluded from some of the provisions of the 
CAA, i.e., the Library of Congress (LOC), the Government Accountability 
Office (GAO), and the Government Printing Office (GPO). Such a change 
would be consistent with ongoing efforts to consolidate specific 
services in particular legislative branch offices, such as 
consolidating all police and security services with the U.S. Capitol 
Police (USCP) (eliminating a separate LOC police force), moving all 
accessibility services to a separate Congressional Office of 
Accessibility Services (eliminating separate House and Senate offices), 
and implementing a uniform financial management system across all 
legislative branch agencies. Pursuant to a mandate from the House 
Committee on Appropriations Subcommittee on the Legislative Branch in 
fiscal year 2005, this issue has been under study since fiscal year 
2006 by the foregoing agencies. The OOC could accelerate this process 
to identify potential cost savings that would result from such a 
legislative change.
    Although the GPO is part of the legislative branch, it is not 
subject to any of the provisions of the CAA. Most GPO employees are 
included in the Federal competitive service and employment laws that 
apply generally in the executive branch apply at GPO. While covered 
under their own statutory schemes, the GAO and LOC are not subject to 
the provisions of the CAA providing protections in the areas of 
employment discrimination, Fair Labor Standards, labor-management 
relations, genetic information use and disclosure, veterans' 
preference, and disability access to public services and 
accommodations. The GAO and LOC, however, are subject to the provisions 
in the CAA relating to occupational safety and health, and presumably 
to those provisions covering polygraph use and procedures, worker 
adjustment and retraining, uniformed services employment and re-
employment, and family and medical leave.
    In the areas where there is no coverage under the CAA, GAO, LOC, 
and GPO utilize their own internal procedures and staff to provide the 
processes and procedures they are otherwise required to provide by law. 
In some cases, these agencies also use related agency employment 
dispute resolution panels or executive branch agencies. Thus, in 
addition to its own internal processes, the GAO is subject to the 
dispute resolution procedures of its own Personnel Appeals Board. Labor 
relations matters of the LOC are regulated by the Federal Labor 
Relations Authority and the GPO is covered by employment dispute 
agencies of the executive branch (the Merit Systems Protection Board, 
the EEOC, the Office of the Special Counsel, and the Federal Labor 
Relations Authority). Many of the processes used by the LOC, GAO, and 
GPO are duplicative of the services provided to the legislative branch 
by the OOC under the CAA.
    The mandatory counseling and mediation provisions of the CAA 
provide a cost-effective means to resolve employment disputes. Indeed, 
these procedures are already in use by such agencies of the legislative 
branch such as the AOC, the Congressional Budget Office, and the USCP. 
Employing offices within the House of Representatives and the Senate 
also utilize the case processing procedures of the OOC. The CAA's 
hearing process is a cost-effective alternative to litigation for all 
parties. Consolidating all counseling, mediation, and hearing services 
for all legislative branch agencies with the OOC would eliminate the 
needless duplication of resources that is currently occurring in the 
LOC, GAO, and GPO.
    Recordkeeping.--Another recordkeeping recommendation involves 
workplace rights other than those listed above with respect to safety 
and health. Most Federal workplace rights statutes that apply to 
private and public sector employers require the employer to retain 
personnel records in a certain manner and for a certain period of time. 
Although some employing offices in the Congress keep personnel records, 
there are no legal requirements to do so under the CAA. Mandating these 
requirements would assist in speedier resolution of claims because 
documentary evidence would be available to assist in adjudicating the 
merits of an employee's claims: employers would be able to use records 
to assist in demonstrating that personnel actions were carried out in a 
nondiscriminatory manner; employees would be able to show that the 
employer acted improperly; mediators may use such records to assist the 
parties in arriving at a resolution; and hearing officers may use such 
records to determine the merits of a case and whether certain cases 
should proceed to a hearing or be dismissed without a hearing. In the 
absence of such records, both parties must present their evidence with 
lengthy depositions and witness testimonies, all resulting in increased 
expenditure of taxpayer dollars.
    Whistleblower Protections.--The Congress has long recognized 
whistleblowers as saving taxpayer dollars by exposing waste, fraud, and 
abuse. The anti-retaliation provisions of the CAA only provide 
protection to employees who exercise their rights under current 
provisions of the CAA, and provisions for disclosures of alleged 
violations of law, abuses, or mismanagement are not included in the 
CAA. If the CAA were amended to include whistleblower protections, the 
OOC would not investigate or prosecute claims of waste, fraud, or abuse 
(the proper authorities would); rather employees who face retaliation 
for reporting waste, fraud, or abuse to the proper authorities would 
bring retaliation claims through the confidential alternative dispute 
resolution process as they would any other workplace rights claim. As 
in the private sector and Federal executive branch, congressional 
staffers would have whistleblower protections and the Congress would 
witness the taxpayer savings that whistleblower protections bring.

                          SUBCOMMITTEE RECESS

    Senator Nelson. The hearing is recessed.
    [Whereupon, at 3:42 p.m., Thursday, March 3, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


</pre></body></html>
